<html>
<title> - NOT A MATTER OF ``IF'', BUT OF ``WHEN'': THE STATUS OF U.S. RESPONSE FOLLOWING A RDD ATTACK</title>
<body><pre>[Senate Hearing 110-323]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-323
 
 NOT A MATTER OF ``IF'', BUT OF ``WHEN'': THE STATUS OF U.S. RESPONSE 
                         FOLLOWING A RDD ATTACK

=======================================================================

                             JOINT HEARING

                               before the

                  OVERSIGHT OF GOVERNMENT MANAGEMENT,
                     THE FEDERAL WORKFORCE, AND THE
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                                  and

                     AD HOC SUBCOMMITTEE ON STATE,
                        LOCAL AND PRIVATE SECTOR
                      PREPAREDNESS AND INTEGRATION

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 15, 2007

                               __________

        Available via http://www.access.gpo.gov/congress/senate

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs


                    U.S. GOVERNMENT PRINTING OFFICE
40-502                      WASHINGTON : 2008
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
MARK L. PRYOR, Arkansas              NORM COLEMAN, Minnesota
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
BARACK OBAMA, Illinois               PETE V. DOMENICI, New Mexico
CLAIRE McCASKILL, Missouri           JOHN WARNER, Virginia
JON TESTER, Montana                  JOHN E. SUNUNU, New Hampshire

                  Michael L. Alexander, Staff Director
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk


  OVERSIGHT OF GOVERNMENT MANAGEMENT, THE FEDERAL WORKFORCE, AND THE 
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                   DANIEL K. AKAKA, Hawaii, Chairman
CARL LEVIN, Michigan                 GEORGE V. VOINOVICH, Ohio
THOMAS R. CARPER, Delaware           TED STEVENS, Alaska
MARK L. PRYOR, Arkansas              TOM COBURN, Oklahoma
MARY L. LANDRIEU, Louisiana          JOHN WARNER, Virginia

                   Richard J. Kessler, Staff Director
               Jodi Lieberman, Professional Staff Member
             Jennifer A. Hemingway, Minority Staff Director
                Thomas Bishop, Minority Legislative Aide
                    Jessica K. Nagasako, Chief Clerk


 AD HOC SUBCOMMITTEE ON STATE, LOCAL, AND PRIVATE SECTOR PREPAREDNESS 
                            AND INTEGRATION

                   MARK L. PRYOR, Arkansas, Chairman
DANIEL K. AKAKA, Hawaii              JOHN E. SUNUNU, New Hampshire
MARY L. LANDRIEU, Louisiana          GEORGE V. VOINOVICH, Ohio
BARACK OBAMA, Illinois               NORM COLEMAN, Minnesota
CLAIRE McCASKILL, Missouri           PETE V. DOMENICI, New Mexico
JON TESTER, Montana                  JOHN WARNER, Virginia

                     Kristin Sharp, Staff Director
                Michael McBride, Minority Staff Director
                        Amanda Fox, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Akaka................................................     1
    Senator Coleman..............................................     2
    Senator Pryor................................................    16

                               WITNESSES
                      Thursday, November 15, 2007

Eugene Aloise, Director, Natural Resources and Environment, U.S. 
  Government Accountability Office...............................     4
Glenn M. Cannon, Assistant Administrator, Disaster Operations 
  Directorate, Federal Emergency Management Agency, U.S. 
  Department of Homeland Security................................     5
Steven Aoki, Ph.D., Deputy Under Secretary for Energy for 
  Counterterrorism, National Nuclear Security Administration, 
  U.S. Department of Energy......................................     7
Thomas P. Dunne, Associate Administrator of Homeland Security, 
  U.S. Environmental Protection Agency...........................     9
Kevin Yeskey, M.D., Deputy Assistant Secretary of Preparedness 
  and Response, accompanied by Richard J. Hatchett, M.D., 
  Associate Director for Radiation Countermeasures Research and 
  Emergency Preparedness, National Institutes of Health, U.S. 
  Department of Health and Human Services........................    10
Kenneth D. Murphy, Director, Oregon Department of Emergency 
  Management.....................................................    24
Thomas S. Tenforde, President, National Council on Radiation 
  Protection and Measurements....................................    26
Wayne J. Tripp, Program Manager, Domestic Preparedness Equipment 
  Technical Assistance Program...................................    27

                     Alphabetical List of Witnesses

Aloise, Eugene:
    Testimony....................................................     4
    Prepared statement...........................................    39
Aoki, Steven, Ph.D.:
    Testimony....................................................     7
    Prepared statement...........................................    76
Cannon, Glenn M.:
    Testimony....................................................     5
    Prepared statement...........................................    60
Dunne, Thomas P.:
    Testimony....................................................     9
    Prepared statement...........................................    81
Hatchett, Richard J., M.D.:
    Testimony....................................................    10
Murphy, Kenneth D.:
    Testimony....................................................    24
    Prepared statement...........................................   108
Tenforde, Thomas S.:
    Testimony....................................................    26
    Prepared statement...........................................   114
Tripp, Wayne J.:
    Testimony....................................................    27
    Prepared statement with an attachment........................   119
Yeskey, Kevin, M.D.:
    Testimony....................................................    10
    Prepared statement...........................................    96

                                APPENDIX

Background.......................................................   129
Questions and Responses submitted for the Record from:
    Mr. Cannon...................................................   135
    Dr. Aoki.....................................................   146
    Mr. Dunne....................................................   152
    Dr. Yeskey...................................................   155


 NOT A MATTER OF ``IF'', BUT OF ``WHEN'': THE STATUS OF U.S. RESPONSE 
                         FOLLOWING A RDD ATTACK

                              ----------                              


                      THURSDAY, NOVEMBER 15, 2007

                           U.S. Senate,            
              Oversight of Government Management,          
            the Federal Workforce, and the District        
             of Columbia Subcommittee, joint with the      
               Ad Hoc Subcommittee on State, Local, and    
             Private Sector Preparedness and Integration,  
                            of the Committee on Homeland Security  
                                         6and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittees met, pursuant to notice, at 10:07 a.m., 
in Room 342, Dirksen Senate Office Building, Hon. Daniel K. 
Akaka, Chairman of the Subcommittee on Oversight of Government 
Management, the Federal Workforce, and the District of 
Columbia, and Hon. Mark L. Pryor, Chairman of the Ad Hoc 
Subcommittee on State, Local, and Private Sector Preparedness 
and Integration, presiding.
    Present: Senators Akaka, Pryor, and Coleman.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. I call this joint hearing of the 
Subcommittee on Oversight of Government Management, the Federal 
Workforce, and the District of Columbia, and the Subcommittee 
on State, Local, and Private Sector Preparedness and 
Integration, to order.
    Senator Pryor and I are jointly chairing this hearing. I 
want to thank him and his staff for making this joint hearing 
possible. I will be chairing the first panel and he will be 
chairing the second.
    At this time, I would like to welcome our witnesses to this 
hearing and I want to thank you very much for being here.
    Today's hearing is the latest in a series I have held over 
the last several years on various aspects of nuclear and 
radiological terrorism. In March, the OGM Subcommittee examined 
U.S. programs underway to secure the highest-risk radiological 
materials in other countries. Today, we will examine how well 
prepared the Nation is to respond to a radiological dispersal 
device (RDD) attack.
    Detonating a dirty bomb in the United States is one of al 
Qaeda's top goals and we must be realistic about the 
consequences of such an attack. Three aspects of our response 
concern me: First, the ability of Federal agencies to respond 
in a coordinated and effective way to a dirty bomb attack; 
second, if they have sufficient guidance to do so; and third, 
the technical capabilities of government agencies to take care 
of victims and clean up contamination.
    The goal of a dirty bomb attack is to create fear and to 
inflict economic damage. Having an effective Federal response, 
the resources to address people's fears, and the ability to 
mitigate and to reduce the economic damage from such an attack 
will make the consequences of a dirty bomb attack less severe.
    Our first panel will examine whether or not the agencies of 
the Federal Government are working together to be able 
effectively to respond to a terrorist attack involving a dirty 
bomb. Even if the Federal response is well coordinated, other 
questions remain. Do agencies have adequate technical expertise 
to clean up operations and to conduct them and to properly 
diagnose and care for those injured during such an attack? Are 
existing assets well protected so that they are available when 
we need them?
    I look forward to this hearing from our witnesses regarding 
the kinds of capabilities they have in place and what is needed 
to ensure our continued preparedness over the long term.
    In a report released in September 2006, the Government 
Accountability Office found that the Department of Energy may 
not be providing enough physical security for its fixed-wing 
aircraft and helicopters which carry radiation survey equipment 
that could be used in the aftermath of a dirty bomb attack. I 
look forward to hearing from DOE today about the measures they 
have put in place to better protect the unique capabilities 
they already have. It is not enough to have these assets on the 
books; they must be available for use when they are needed.
    At this time, I would like to call on Senator Coleman for 
any remarks he may have.

              OPENING STATEMENT OF SENATOR COLEMAN

    Senator Coleman. Thank you, Mr. Chairman. Just briefly, 
first, I want to thank you for holding this very important 
hearing.
    A number of months ago, we had the opportunity through the 
Permanent Subcommittee on Investigations to look at the issue 
of individuals getting materials for use in a dirty bomb, 
radiological materials that are used, for example, in the 
construction industry. We worked with Mr. Aloise from the 
Government Accountability Office, and I believe we found some 
holes in the system. Holes that we subsequently have tightened 
up.
    But during the course of that hearing, we had testimony 
from Commissioner McGaffigan (who has passed away), from the 
Nuclear Regulatory Commission. In our exchange, we talked about 
the psychological impact that dirty bombs can have. So often, 
the focus has been on nuclear weapons and nuclear bombs, but 
the reality is that the psychological impact of a dirty bomb, 
the impact upon the community, the impact upon the economy, is 
something that we really need to better understand. We need to 
better educate people about the nature of the threat, and we 
have to make sure that we have the highest level of 
preparation.
    I fear in this dangerous world that it is not a matter of 
if, as the title of this presentation indicates, but rather a 
matter of when. The ability for a terrorist to be able to 
detonate a dirty bomb is something that we need to understand. 
It can happen and we have to be prepared to deal with it.
    So I just want to thank you for holding this hearing. I am 
only going to be able to stay through the first panel. But 
there needs to be an education process that goes on, not just 
at the Federal level, but also at the local level. As a former 
elected mayor, I know firsthand that we have got to make sure 
that the first responders at the local level are prepared, and 
we also need to do a better job of simply educating our 
citizens about what this is all about and how we can respond.
    So this hearing is timely, it is important, and I look 
forward to hearing from the witnesses.
    Senator Akaka. Thank you very much, Senator Coleman. I want 
to thank you for joining us at this hearing.
    I would like to welcome our witnesses to the Subcommittee 
hearing today: Gene Aloise, Director of Natural Resources and 
Environment at the Government Accountability Office; Glenn M. 
Cannon, Assistant Administrator for Disaster Operations at the 
Federal Emergency Management Agency; Steven Aoki, Ph.D., Deputy 
Under Secretary of Energy for Counterterrorism at the National 
Nuclear Security Administration; Thomas Dunne, Associate 
Administrator for Homeland Security at the Environmental 
Protection Agency; and Dr. Kevin Yeskey, Deputy Assistant 
Secretary for Preparedness and Response at the Department of 
Health and Human Services. Dr. Yeskey will be supported by Dr. 
Richard Hatchett, Associate Director for Radiation 
Countermeasures Research and Emergency Preparedness at the 
National Institute for Allergy and Infectious Diseases, 
National Institutes of Health at the HHS.
    As you know, it is the custom of this Subcommittee to swear 
in all witnesses. I would ask all of you to stand, raise your 
right hand and take this oath.
    Do you swear that the testimony you are about to give the 
Subcommittee is the truth, the whole truth, and nothing but the 
truth, so help you, God?
    Mr. Aloise. I do.
    Mr. Cannon. I do.
    Dr. Aoki. I do.
    Mr. Dunne. I do.
    Dr. Yeskey. I do.
    Dr. Hatchett. I do.
    Senator Akaka. Thank you very much. Let the record note 
that the witnesses answered in the affirmative.
    Before we start, I want to let you know that your full 
written statements will be made a part of the record. I would 
also like to remind you to keep your remarks brief, given the 
number of people testifying at this hearing.
    Mr. Aloise, will you please begin.

TESTIMONY OF EUGENE ALOISE,\1\ DIRECTOR, NATURAL RESOURCES AND 
       ENVIRONMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Aloise. Thank you. Thank you, Mr. Chairman. Mr. 
Chairman and Members of the Subcommittee, I am pleased to be 
here today to discuss DOE's use of aerial background radiation 
surveys and physical security measures at DOE's two remote 
sensing labs. My remarks are based on our September 2006 report 
on DOE's nuclear response efforts.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Aloise appears in the Appendix on 
page 39.
---------------------------------------------------------------------------
    DOE has long maintained an emergency response capability to 
quickly respond to potential nuclear and radiological threats 
to the United States. This capability took on increased 
significance after the attacks of September 11, 2001, because 
of concern that terrorists may try to smuggle materials into 
the United States and detonate a nuclear or radiological 
dispersal device (RDD).
    In response, DOE developed the expertise to search for and 
locate potential nuclear and radiological threats in U.S. 
cities and help minimize the consequences of such threats. One 
of DOE's unique capabilities is that it is able to conduct 
aerial background radiation surveys with helicopters and planes 
equipped with radiation detectors to establish radiation levels 
against which future levels can be compared to more easily 
detect a radioactive threat.
    Although DOE has dispersed these emergency response 
capabilities across the country, a number of assets are 
primarily located at two key facilities in Nevada and Maryland. 
These facilities house, among other things, specialized search 
teams, planes and helicopters with radiation detection 
equipment, and laboratories that design specialized equipment. 
DOE requires that these facilities be adequately protected to 
defend against possible terrorist attacks.
    Regarding aerial radiation surveys, in our view, there are 
real benefits to conducting these surveys of U.S. cities. The 
surveys can be used to help detect radiological threats in the 
United States more quickly because law enforcement officials 
could focus on sources of radiation not previously identified, 
and they can be used to measure contamination levels after a 
radiological attack to assist in or reduce the cost of clean-up 
efforts. DOE officials estimate that information from the 
surveys could save millions and perhaps tens of millions of 
dollars in clean-up costs. The surveys do have some 
limitations, including difficulty in detecting certain well-
shielded nuclear and radiological materials.
    Nonetheless, in 2005, New York City's Police Department 
asked DOE to conduct a survey of the New York City metro area. 
The survey cost about $800,000 and was funded with DHS grants. 
NYPD officials told us that the survey was tremendously 
valuable because it identified more than 80 locations with 
radiological signatures that needed to be investigated. In 
fact, while investigating the 80 locations, they found radium, 
a radiological material linked to diseases such as bone cancer, 
at a local park that once was an industrial site. Officials 
used this data to close and clean up the area.
    Despite these benefits, New York is the only major U.S. 
city that has conducted such a survey because neither DOE nor 
DHS is informing cities about the surveys, and neither agency 
has mission responsibility for conducting them. In addition, 
DOE officials told us that they have limited equipment and 
funding and DHS doesn't believe it has the expertise or 
capability to conduct the surveys. As a result, U.S. cities may 
be missing an opportunity to be better prepared for a terrorist 
attack.
    Regarding the security of the two remote sensing labs, 
there are a number of critical assets that are available only 
at the labs and their loss would hamper DOE's ability to 
quickly prevent or respond to a nuclear incident. These 
capabilities include highly-trained personnel and specialized 
equipment, helicopters and planes. In our view, the current 
physical security measures at the two labs may not be 
sufficient to protect against a terrorist attack. For example, 
one lab does not have a fence, vehicle barriers, or other 
protection around the building. While both labs are located on 
Air Force bases, access is not strictly limited and GAO's team 
gained access multiple times with little or no scrutiny. 
However, DOE believes the security at the labs is sufficient 
and has no contingency plans in the event one or both labs were 
attacked.
    Over a year ago, we recommended that DOE and DHS evaluate 
the costs and benefits of aerial surveys and inform State and 
local governments about them. We also recommended that DOE 
consider strengthening the physical security of the remote 
sensing labs. To date, little has been done to implement our 
recommendations.
    Mr. Chairman, that concludes my statement. I would be happy 
to respond to any questions you or other Members may have.
    Senator Akaka. Thank you very much, Mr. Aloise. Mr. Cannon.

   TESTIMONY OF GLENN M. CANNON,\1\ ASSISTANT ADMINISTRATOR, 
 DISASTER OPERATIONS DIRECTORATE, FEDERAL EMERGENCY MANAGEMENT 
          AGENCY, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Cannon. Chairman Akaka, Senator Coleman, I am here to 
represent a new FEMA, one that takes our Nation's all-hazard 
preparedness, protection, response, recovery, and mitigation 
systems and capabilities to a new level.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Cannon appears in the Appendix on 
page 60.
---------------------------------------------------------------------------
    Building on the lessons we have learned in recent years and 
with your continued support, we are taking steps to 
significantly increase FEMA's core disaster response 
capabilities. This new FEMA has adopted a more forward-leaning 
and collaborative disaster response approach and we are 
strengthening our capabilities by building stronger regions and 
stronger ties with our partners across all levels of 
government, the private sector, and the nonprofit community.
    FEMA's all-hazards approach encompasses activities 
involving RDD events. In fact, the law requires that DHS 
develop and implement measures to prepare for and respond to 
chemical, biological, radiological, and nuclear threats. In the 
event of a major RDD incident, the Secretary of Homeland 
Security is responsible for domestic incident management. In 
responding to such an event, the Secretary may select a 
coordinating agency, most likely the Department of Energy, to 
provide technical expertise to support DHS, FEMA, and the FBI. 
The FBI would have lead responsibility for RDD criminal 
investigations.
    The National Response Plan and its eventual successor, the 
National Response Framework, outlines specific guidance for RDD 
incident responses. This is discussed more thoroughly in my 
written testimony.
    FEMA is responsible for coordinating the complex planning 
and response activities of its Federal, State, Tribal, and 
local partners. For example, FEMA chairs the Federal 
Radiological Preparedness Coordinating Committee, an 
interagency body that provides a national-level forum for the 
development and coordination of radiological prevention and 
preparedness policies and procedures. It also provides policy 
guidance for Federal radiological incident management in 
support of emergency management and preparedness activities at 
all levels of government.
    The emergency support functions in the NRP are the 
operational-level mechanism for providing assistance to all 
levels of government in functional areas, such as 
decontamination and monitoring, mass care, energy, public 
health and medical services. More detail on those interagency 
activities is also provided in my written testimony.
    FEMA's own resources are critical to ensuring interagency 
coordination. Our National Response Coordination Center, 
supported by our regional centers, provides a central point of 
communications for any response. Our written testimony explains 
these capabilities in greater detail, but the key point I would 
like to make is that with these resources, government agencies 
can truly work together as a team in response to a radiological 
dispersal device (RDD) incident.
    While FEMA has the critical responsibility to coordinate 
the response activities of our Federal partners, my written 
testimony explains in more detail the support capabilities of 
the key partners in a RDD event, including the Departments of 
Energy, Defense, Justice, the Veterans Affairs, Environmental 
Protection Agency, and Health and Human Services, among others. 
Of course, FEMA and DHS have resources that can be deployed. 
FEMA's Emergency Response Teams, the Urban Search and Rescue 
Task Forces, the Mobile Emergency Response Support Detachments, 
our Prepositioned Equipment Program, the Joint Nuclear Incident 
Response Team, and the Joint Domestic Emergency Support Team 
will all play a vital role in responding to a RDD event.
    We can also leverage our partners within DHS, such as 
Customs and Border Patrol, the U.S. Coast Guard, Immigration 
and Customs Enforcement, the Transportation Security 
Administration, and the National Infrastructure Coordination 
Center, for their extensive personnel resources, technical 
expertise, and other support. Again, I refer you to my written 
testimony for additional details.
    Knowing that it is not just a matter of ``if'' but of 
``when'', FEMA is instrumental in making sure that all of our 
partners work together to be prepared for all hazards, 
including a RDD event. For example, our National Exercise 
Program (NEP) is just one of the mechanisms used to evaluate 
and ensure our preparedness. The NEP is a national interagency-
wide program that prioritizes, focuses, and coordinates 
national security and homeland security preparedness-related 
exercises. Results from these exercises provide information 
that informs the policy process, allow evaluation of the 
capability to perform in a crisis or emergency, and ultimately 
are used to improve the government's preparedness posture.
    This fall, TOPOFF 4 was the first in the TOPOFF series to 
focus on RDDs and it allowed all levels of government to 
evaluate capabilities required to respond to near-simultaneous 
events of a similar type. My written testimony provides more 
details on FEMA's responsibilities, including our role in 
coordinating the wide-ranging activities of our partners. Thank 
you.
    Senator Akaka. Thank you very much, Mr. Cannon. Dr. Aoki.

 TESTIMONY OF STEVEN AOKI, PH.D.,\1\ DEPUTY UNDER SECRETARY OF 
    ENERGY FOR COUNTERTERRORISM, NATIONAL NUCLEAR SECURITY 
           ADMINISTRATION, U.S. DEPARTMENT OF ENERGY

    Dr. Aoki. Chairman Akaka, Senator Coleman, thank you very 
much for the opportunity to appear today to discuss the 
Department of Energy's role in national response to a terrorist 
attack involving a Radiation Dispersal Device (RDD). I 
submitted a written statement that describes the capabilities 
that DOE could contribute. So this morning, in the interest of 
brevity, I will just focus on a few key points.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Aoki appears in the Appendix on 
page 76.
---------------------------------------------------------------------------
    First, it is important to keep in mind that the scale of a 
RDD event is significantly smaller than, for example, a nuclear 
detonation. There is certainly going to be a significant 
problem managing, guiding public reaction to what is an 
unprecedented occurrence, and there certainly is going to be a 
very complicated restoration and recovery process, but the 
actual number of injuries, of casualties directly caused by 
radiation released in a RDD is going to be relatively small.
    Second, DOE's emergency response specialists function, as 
Mr. Cannon just noted, as part of an interagency team. We 
support the Department of Homeland Security in its designated 
role as the Federal incident manager for disaster response and 
recovery. In addition, if an incident is connected to 
terrorism, we support the FBI's investigatory and law 
enforcement role. For a RDD event, the National Response Plan 
assigns the Department of Energy to be the coordinating agency 
for technical support until such time as that responsibility is 
handed over to EPA during a transition from the response phase 
to the longer-term recovery phase. Even after relinquishing our 
primary role, we will continue to provide technical support to 
EPA and our other Federal partners, as needed.
    Third, our ability to tap into our national laboratories 
means that we can bring a considerable depth of expertise to 
bear in an emergency like a RDD attack. In this kind of event, 
we would expect to send to the incident scene a Federal 
Radiological Monitoring and Assessment Center (FRMAC), that 
would be manned by personnel from multiple Federal agencies. 
They would coordinate radiation measurements in the field, 
ensuring that Federal, State, and local officials receive a 
complete and consistent picture of the situation. They would 
also provide expert assistance in interpreting the data.
    We maintain 28 regionally-based Radiation Assistance 
Program (RAP), teams who are trained to deploy to an incident 
site to make on-the-ground measurements of radioactive 
contamination. These teams are supported by DOE's aerial 
measuring system that can make radiation measurements from 
helicopters and fixed-wing aircraft. We would make available, 
often within minutes of an event, computer-generated models of 
the dispersion of radioactive material through the atmosphere, 
assisting officials in advising the public and in directing 
their own response measures.
    DOE also provides expert consultations on the medical 
treatment of people exposed to radioactive materials through a 
program known as the Radiation Emergency Assistance Center/
Training Sites (REAC/TS). This year, REAC/TS successfully 
brought a cytogenetic dosimetry laboratory back online after 
not having its program functioning for many years, adding 
significantly to the Nation's readiness to diagnose patients 
who have received high radiation doses. All of these activities 
can be linked by dedicated field-deployable emergency 
communications equipment.
    Taken together, our response to a major RDD event could 
involve hundreds of people in the field, supported by 
additional scientific expertise, computer modeling capability, 
and specialized facilities at our national labs.
    One of the challenges facing the Department of Energy will 
be to ensure that as we consolidate and transform the nuclear 
weapons complex, we preserve the unique technical capabilities 
and workforce that underlie our Emergency Response Program. In 
doing so, we must also wrestle with the hard fact that people 
with some critically-needed skills, for example, 
radiochemistry, will increasingly be in short supply as the 
number of university graduates in these areas diminishes.
    Another challenge will be developing appropriate tools and 
procedures to ensure that the information developed by our 
specialists can be properly interpreted by officials at the 
Federal, State, and local level charged with making public 
safety decisions who are not themselves experts on 
radioactivity. This need continues to be underscored by 
exercises, including the recently-concluded TOPOFF 4.
    Public communications remains a concern, as well, in view 
of the unprecedented nature of a RDD attack.
    Finally, and although it is not the subject of today's 
hearing, I want to emphasize our belief that the best approach 
to protecting the country against nuclear or radiological 
terrorism is to increase security of the materials that could 
be used in such attacks. This is an area where DOE has major 
efforts, both domestically and internationally.
    That concludes my prepared statement and I look forward to 
your questions. Thank you.
    Senator Akaka. Thank you very much, Dr. Aoki. Mr. Dunne.

  TESTIMONY OF THOMAS P. DUNNE,\1\ ASSOCIATE ADMINISTRATOR OF 
    HOMELAND SECURITY, U.S. ENVIRONMENTAL PROTECTION AGENCY

    Mr. Dunne. Good morning, Mr. Chairman and Members of the 
Subcommittee. I am Thomas P. Dunne. I am the Associate 
Administrator of Homeland Security at the U.S. Environmental 
Protection Agency, and thank you for the opportunity to discuss 
EPA's efforts to prepare for and respond to an attack with a 
Radiological Dispersion Device.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Dunne appears in the Appendix on 
page 81.
---------------------------------------------------------------------------
    Since the September 11, 2001 attack on the World Trade 
Center, EPA has made a significant effort to improve its 
emergency response and homeland security functions, including 
the creation of my Office of Homeland Security. In addition, 
EPA has reorganized emergency response functions under the 
Office of Emergency Management. We have hired 50 additional On-
Scene Coordinators. We have created an additional Environmental 
Response Team. We have established a National Decontamination 
Team. And we have developed an EPA national approach to 
response.
    In an incident or attack involving a radiological device, 
EPA would be expected to respond with other Federal agencies 
through the National Response Plan. During the early phase of a 
response, EPA's primary role would be to assist the Department 
of Homeland Security and the Department of Energy in 
characterizing environmental impacts and providing 
recommendations to State and local decisionmakers regarding the 
actions needed to protect the public. As a situation 
transitioned to the longer-term recovery phase, at some point, 
EPA will take over the leadership of the environmental 
characterization and we would assume responsibilities for 
managing the Federal radiological clean-up activities.
    EPA maintains personnel and assets ready to respond to 
radiological emergency response situations and we provide 
technical expertise and support, when needed. We have 
approximately 350 personnel for emergency responses and we also 
built in a Response Corps to expand our capability.
    EPA's trained personnel and specialized equipment includes 
250 On-Scene Coordinators and special teams under the National 
Oil and Hazardous Substance National Contingency Plan, and they 
would include the National Decontamination Team, the 
Radiological Emergency Response Team, the Emergency Response 
Team, and the National Counterterrorism Evidence Response Team. 
We have 3,700 field-ready contractors, and according to a 
recently-conducted EPA survey, EPA contractors could provide an 
additional 4,500 personnel to support large-scale incidents, 
and we have now developed a Response Corps that has nearly 
1,000 staff members.
    In the area of environmental laboratory capabilities and 
capacity, EPA has begun a demonstration study aimed at 
improving national radiological laboratory capacity through 
enhancing State laboratories, and we are developing guidance 
and training, such as rapid radiochemistry methods, lab 
incident response analysis guidance documents for environmental 
media, and radiochemistry training for laboratory personnel to 
enhance capacity of commercial laboratories throughout the 
United States.
    We understand that the American people expect a timely 
response to a radiological incident or attack and that is the 
goal that EPA and all the Federal agencies we work with are 
striving for. However, it is a goal that presents some real 
challenges. For instance, EPA has conducted an assessment of 
the environmental sample demand for the National Homeland 
Security Planning Scenario Number 11, which involves a 
detonation of radiological devices in three major urban 
business districts. EPA's analysis of the Nation's existing 
laboratory radiological capacity revealed a significant 
capacity gap. This capacity gap will result in a lack of 
timely, reliable, and interpretable data and will delay 
national and local response and consequence management 
activities.
    In addition to the capacity gap, EPA's assessment also 
revealed capability and competency gaps specific to 
radiological or nuclear incident responses and overall 
nationally declining infrastructure for radiological 
laboratories. If there were multiple large-scale attacks, the 
system we currently have in place would be strained. Today's 
technology and trained personnel are simply not sufficient to 
meet the needs of such a response, and in the case of a 
radiological incident or attack, this is magnified by the dose 
limits we enforce in order to protect responders from 
radiation.
    In addition, while field detection capabilities can quickly 
be used to take action to evacuate or relocate the public 
following an incident, more extensive and time consuming fixed 
lab analysis will be needed to allow EPA and others to assess 
whether or not the public can return to their homes. Therefore, 
it is unlikely that the public expectations for quick 
reoccupation of an impacted area would be met.
    Mr. Chairman, that concludes my prepared remarks. Again, I 
want to thank you for inviting me to today's hearing and I 
would be pleased to answer any questions that you or the 
Members may have.
    Senator Akaka. Thank you very much, Mr. Dunne. Now we will 
hear from Dr. Yeskey.

TESTIMONY OF KEVIN YESKEY, M.D.,\1\ DEPUTY ASSISTANT SECRETARY 
   FOR PREPAREDNESS AND RESPONSE, ACCOMPANIED BY RICHARD J. 
       HATCHETT, M.D., ASSOCIATE DIRECTOR FOR RADIATION 
 COUNTERMEASURES RESEARCH AND EMERGENCY PREPAREDNESS, NATIONAL 
   INSTITUTES OF HEALTH, U.S. DEPARTMENT OF HEALTH AND HUMAN 
                            SERVICES

    Dr. Yeskey. Good morning, Chairmen Akaka and Pryor, and 
Senator Coleman. Thank you for the opportunity to discuss the 
domestic preparations HHS has made for radiologic incidents. 
The Office of the Assistant Secretary for Preparedness and 
Response's mission is to lead the Nation in preventing, 
preparing for, and responding to the adverse effects of public 
health emergencies and disasters and the vision we see as a 
Nation prepared.
---------------------------------------------------------------------------
    \1\ The prepared statement of Dr. Yeskey appears in the Appendix on 
page 96.
---------------------------------------------------------------------------
    Like our response counterparts in other agencies, the ASPR 
has taken an all-hazards approach to health preparedness 
planning. My oral comments today will focus on the HHS's 
preparations specific to radiation events and the initial 
observations by HHS through its participation in the Top 
Officials (TOPOFF) 4 exercise, which involved several simulated 
attacks using Radiologic Dispersal Devices.
    The Pandemic and All Hazards Preparedness Act created the 
ASPR and focused the leadership for all Federal public health 
and medical preparedness and response functions in that office. 
HHS has implemented an incident command system that is 
complementary to and consistent with the National Response Plan 
and the National Incident Management System. HHS supports the 
overall lead of DHS in coordinating the Federal response. In 
responses, we place HHS staff in operations centers at the 
State, regional, and Federal levels and deploy our staff to the 
Joint Field Office.
    HHS has developed an ESF-8, Emergency Support Function 8 
Playbook, focused on RDDs, which provides a comprehensive guide 
for managing Federal health and medical operations in response 
to a RDD. These response steps are pre-planned and pre-scripted 
in the preparation of the playbooks.
    HHS has representatives on the advisory team for 
environment, food, and health--a collection of experts from a 
variety of Federal agencies that advise State, local, and 
territorial governments on ways to protect people and the 
environment following a radiological incident. ASPR has worked 
with State, Tribal, territorial, and local officials to enhance 
their levels of preparedness. Our Regional Emergency 
Coordinators work with States and local jurisdictions to 
coordinate and enhance preparedness within their regions.
    For all disasters, systems are needed to rapidly expand 
research capabilities to meet the needs of the event. Regarding 
surge capacity for radiation events, the Strategic National 
Stockpile can rapidly deploy medical countermeasures after 
notification to deploy. The National Disaster Medical System 
Response Teams can deploy to provide acute care to victims. 
NDMS hospitals can provide surge beds for victims who require 
inpatient clinical care. HHS also works with the American Burn 
Association to assess burn bed availability on a weekly basis.
    We also participate in the Radiation Injury Treatment 
Network (RITN), in collaboration with the National Marrow Donor 
Program and the National Cancer Institute Cancer Centers. This 
voluntary network includes centers that have concentrations of 
experts in oncology and hematology and are used to caring for 
patients with bone marrow suppression.
    ASPR and the National Library of Medicine have developed a 
web-based site with just-in-time information on medical 
management of radiation injuries for physicians and nurses. In 
the event of an incident, clinicians at all levels could refer 
to this website for the most current treatment protocols for 
patients injured by a RDD.
    With regard to TOPOFF 4, HHS was fully engaged. We had 
liaisons in operations centers at the State, regional, and 
Federal levels. HHS deployed public health and medical response 
teams to Portland, the site of the largest simulated 
activities. HHS took the opportunity to exercise a number of 
functions, to include the ESF-8 RDD Playbook, Secretarial 
Declaration of a Public Health Emergency, issuance of an 
Emergency Use Authorization for Prussian Blue in children under 
the age of two, and deployment of our Incident Response 
Coordination Team. We felt well integrated into the overall 
Federal response and had very good communications at the local, 
State, and Federal levels. HHS staff participated in regular 
national incident communications conference line calls, which 
facilitates coordination of public communications across the 
Federal interagency partnership. HHS also produced several 
Public Service Announcements that aired on a virtual news 
network.
    Despite the successes, we also identified areas for 
improvement and efforts are already underway to take the 
lessons observed in TOPOFF 4 and incorporate them into our RDD 
Playbook. A major lesson observed is that enhanced laboratory 
capacity to measure radionuclides in patients will facilitate 
patient management. With our interagency partners, HHS has 
developed a concept for a radiation laboratory network.
    We have made progress in developing the plans and surge 
capacities to deal with public health and medical consequences 
resulting from a RDD. We have used exercises like TOPOFF 4 to 
identify gaps and vulnerabilities that need to be addressed. We 
continue to work closely with our local, State, Tribal, 
territorial, and Federal partners on improving our responses. 
While our progress is considerable, there is still much more to 
accomplish.
    That concludes my testimony. I would be glad to answer any 
questions. Thank you.
    Senator Akaka. Thank you very much, Dr. Yeskey.
    Dr. Aoki and Mr. Cannon, there is some evidence that aerial 
radiation surveys, which include having a helicopter or 
airplane fly over an area with radiation detection equipment, 
can help manage the consequences of a dirty bomb attack or even 
prevent such an attack. The GAO report states that neither DOE 
nor DHS have embraced mission responsibility for funding and 
conducting aerial radiation surveys or even notifying city 
officials that such a capability exists.
    Given the usefulness of an aerial radiation survey in 
mitigating the consequences of a dirty bomb attack, why is this 
the case? Dr. Aoki.
    Dr. Aoki. Mr. Chairman, I think we can actually report some 
progress since the GAO report came out. We have now a pilot 
project that we are working jointly with the Department of 
Homeland Security in which we are looking at the City of 
Chicago actually acquiring some radiation detection equipment 
for their own helicopters and I believe there may be some DHS 
funding involved in that, and we will then help them develop 
plans for conducting aerial surveys and for using that 
equipment in the event of some sort of emergency involving the 
release of radiation. We hope that this will be a pilot project 
that would then give us a basis for looking at extending that 
sort of approach to other major metropolitan areas.
    Senator Akaka. Mr. Cannon.
    Mr. Cannon. I would also comment that the Preparedness 
Directorate returned to FEMA in April, and it was through the 
Preparedness Directorate that those grants were made available 
or where that support would come from. We are able now that 
preparedness has returned to FEMA to take their activities and 
much more closely integrate them and grant guidance for those 
grants into the programs supporting local governments and large 
metropolitan areas. So I think what we will be able to see in 
the future is a different approach to supporting the monitoring 
that you have spoken of, because it is absolutely essential to 
have that as rapidly as possible to support the response to the 
incident, including for the first responders.
    I would add that some equipment that has been purchased 
through the anti-terrorism programs, such as radiation 
monitors, are on first responder fire apparatus, significantly 
tells us on the front end when they respond to an explosion 
whether or not radiation is available so that they can be 
better prepared to deal with the response. So the earlier we 
can get detection of radiation in the incident, the more 
accurately we can assess the situation and provide for the 
initial response.
    Senator Akaka. Dr. Yeskey, if three simultaneous RDDs were 
to be detonated around the United States similar to the attack 
exercised in TOPOFF 4, how important is it to process all of 
the human clinical samples taken from victims and is there 
sufficient laboratory capacity to do that?
    Dr. Yeskey. Sir, laboratory capacity to do that is limited 
nationwide. It is important to have the ability to be able to 
determine who has been exposed and who has not been exposed so 
we can use the medical countermeasures for those people who 
were exposed. So it is important to have that capability for a 
RDD.
    What we have looked at and the concept we have for the 
Radiation Laboratory Network would look at expanding that 
capability to test for radionuclides in patients. It would also 
look at assessing the cytogenetic biodosimetry in patients, not 
necessarily for a RDD but for a nuclear event. It would also 
look at addressing hematology surge capacity, the ability to do 
some basic blood tests on patients, which would also be an 
indicator of exposure. So it is an important component in the 
medical management of patients who might have been exposed.
    Senator Akaka. Let me pursue that a little more on the lab 
capacity. Would the EPA have the lab capacity to process all of 
the environmental samples?
    Dr. Yeskey. I think I will defer to EPA.
    Senator Akaka. Mr. Dunne.
    Mr. Dunne. Mr. Chairman, as I mentioned in my statement, 
there is a significant gap and we have actually done an 
analysis of one major business district in a major city which I 
alluded to in my comments. I can tell you the capacity in this 
country, and that is Federal Government, State Government, and 
commercial labs, that do radiological chemistry is about 6,400 
samples a week. Taking one of these cities--not three, just 
one--you are talking about a demand that would be about 9,600. 
So you have a gap every week of 3,200. At peak times, when you 
need the most number of samples, that demand could rise up to 
13,000.
    So, in effect, when you take a look, as we are talking 
about having to do 350,000 samples, under the existing capacity 
that is in this country right now, you are talking 2 years to 
get all the analysis done. That has nothing to do with whether 
or not the restoration and clean-up is taking place, and you 
can't do that without the analysis.
    Senator Akaka. I see. Dr. Aoki, in your testimony, you 
mentioned the Radiation Emergency Assistance Center and 
Training Site as one of the key capacities DOE has to provide 
medical expertise and analysis for victims in the event of a 
dirty bomb attack. How many experts do you have staff the 
Center?
    Dr. Aoki. I actually don't know the number of staff. We 
will have to get that for you, Senator. The capacity of the 
Center, though, is, in fact, small. It is designed to really 
deal with a--process the number of patients that correspond to 
a high-level of exposure in a very acute sort of incident, and 
so I think the number is something like 50 patients per week 
who can be assessed through that Center.
    The important thing that REAC/TS does is actually do 
outreach and training, as its name implies, for medical 
personnel from around the country, and we actually do maintain 
rosters of people who have received that training and can make 
that information very quickly available to whoever needs it, 
whether that is HHS or FEMA. So it is really a core cadre of 
expertise that can then reach out into a broader medical 
community.
    Senator Akaka. Dr. Aoki, if three simultaneous dirty bomb 
attacks were to occur in the United States, would the Center 
have the ability to process all the samples taken from the 
victims?
    Dr. Aoki. No, and I think that is actually in some ways not 
the scenario that we are really looking at for handling people 
who have been exposed to radiation in a RDD attack. Again, the 
very large numbers of people who would be exposed, receive 
relatively low doses and the capability of REAC/TS really is 
designed to assess people who have received high doses of 
radiation. So the laboratory capability that Dr. Yeskey was 
speaking of is actually where we would be turning for the 
majority of laboratory analysis that is required for people who 
have been exposed in a RDD event.
    Senator Akaka. Finally, can you tell me if the Center is 
certified under the Clinical Laboratory Improvement Amendments 
so that HHS could use its capabilities to process those 
samples?
    Dr. Aoki. I don't actually know the answer to that. I will 
have to give you a response.
    Senator Akaka. Would you know, Dr. Yeskey?
    Dr. Yeskey. No, sir, I don't know.
    Senator Akaka. All right. Well, let me call on Senator 
Coleman for his questions.
    Senator Coleman. Thank you, Mr. Chairman.
    Dr. Aoki, in your testimony at the very end, the written 
testimony, you describe the difference between the consequences 
resulting from detonation of a RDD and the obviously lesser 
consequences from detonation involving fissionable nuclear 
material. The real impacts and things we are concerned about 
here are psychological, and, as you know, the economic. It 
could have devastating effects on the local economy with 
impacts on a national scale, so it is not the death toll from 
the incident itself but it is the psychological panic and the 
resulting economic displacement. If it were Wall Street, you 
would be shutting down Wall Street for perhaps a very long 
time.
    Who has responsibility and what is being done to better 
educate the public about the real impact of a dirty bomb so as 
to lessen the potential psychological impact? Which agency has 
responsibility and what is being done in that regard?
    Dr. Aoki. Well, I think the primary responsibility probably 
falls to DHS. However, we have a job to do here in actually 
providing information and scientific expertise that can be used 
as the basis for developing that information for the public.
    Senator Coleman. And I am looking for the distribution. 
Actually, Mr. Cannon, I am going to turn to you. I will add to 
that question, because I was reviewing some of the editorials 
in the October 18 Oregonian newspaper, which was talking about 
the TOPOFF 4 exercise and highlighted the concerns of citizens 
who felt the public was left out of the exercise, was not well 
informed or educated what to do after dirty bomb attacks.
    So my question for you is two-fold. First, what is going on 
to educate the broader public about the impacts of a dirty bomb 
before an attack, and second, can you detail what FEMA is doing 
to address the concerns raised in the Oregonian about involving 
the public and educating them about what to do after a dirty 
bomb attack?
    Mr. Cannon. Yes, sir. There are a couple of programs that 
we operate within DHS-FEMA that are written at a level for the 
general public. FEMA has a guide entitled, ``Are You Ready?'' 
It is a step-by-step guide for people to prepare for all kinds 
of hazards and it is written at a level so that they can 
understand it. It is an in-depth guide to citizen preparedness. 
Within that is a section on RDDs and it is accessible to 
everyone at FEMA.gov, ``Are You Ready?'' So we use that in all 
of our outreach programs.
    Additionally, FEMA has had a program called (REPP), the 
Radiological Emergency Preparedness Program, for years, which 
was focused initially on safety around nuclear power 
facilities, and if you lived in the area of one of those, what 
you would do in the event of an issue. That program also has 
returned to FEMA now. So we will look at the protection action 
guides and the work that they have done and expand that to all 
radiation-nuclear incidents, not just around power plants.
    And finally, in terms of the Oregonian and local 
governments, we have developed a new tool which we call the Gap 
Analysis, which is a planning tool which we utilize through our 
regions, 10 FEMA regions, with all State and major local 
governments, and it looks at their preparation for all these 
events that may occur in the national planning scenarios and we 
look for places where we could do some more work to improve 
that preparedness. That program kicked off last March. We 
focused initially on the hurricane States, and as we move this 
year, we are going to focus on all hazards. And in there, part 
of that will be the kinds of plans that States and locals have 
to prepare for these kinds of events.
    I am sure I don't need to remind you, but the way we deal 
with emergency management in our country is we start at the 
local level and then it moves on up from there. So we want to 
make sure that at the local level, we do everything we can to 
support that local incident commander through the Unified 
Command System, and part of that will be working with them as 
their partner to make sure they are prepared at the local 
level.
    Senator Coleman. I am not sure I am going to have time to 
get to some questions about the incorporation of the private 
sector into the response, but I want to turn to you, Mr. Dunne. 
In your testimony, you talked about existing radiological 
laboratory capacity gaps. You talked about competency gaps, 
capability gaps. You indicated at the very end if there were 
multiple large-scale attacks, the system we currently have in 
place would be strained. Today's technology and trained 
personnel are simply not sufficient to meet the needs of such 
response, etc.
    What is it that we in Congress have to do to fill the 
capacity gap, the capability gap, the competency gap, and to 
lessen the strain put on technology and trained personnel to 
meet the needs that would arise should we be subject to 
multiple dirty bomb attacks?
    Mr. Dunne. It is always interesting for me to tell the 
Congress what to do. [Laughter.]
    Senator Coleman. I would like to know what the advice is. 
[Laughter.]
    The question ultimately is can we get it done? That is a 
separate issue. But I certainly welcome your advice----
    Mr. Dunne. I think that I want to backtrack for a second, 
Senator, and say that I think the emphasis in this country 
since September 11, 2001 appropriately has been on detection 
and prevention and the initial response. I don't think that we 
have had much focus at the Congressional level in our 
appropriations process or in the budget process internally 
about restoration and recovery, and that is where the greatest 
number of samples will be taken.
    There is a declining market for radiochemists. The biggest 
user is probably the Defense Department in cleaning up the old 
sites that they have had, and as they have made progress, there 
is less demand for the samples. So laboratories are not going 
to stay in business with people and equipment unless there is 
some revenue flowing in. Similarly, DOE and EPA have very 
limited capacity and States have even less than that. When we 
looked at the commercial market, and we have done a fairly 
decent analysis, I believe, that gap is going to grow. So if we 
ran the scenario, which I only mentioned one, you could triple 
that time.
    So as a matter of fact, it takes resources to do this 
thing. You could lay out a scale in terms of what you would 
need in terms of certain periods and whether or not the country 
will make the investment to get there, and that is an open 
question and we can't answer that. We can only tell you what we 
perceive the problem is.
    Senator Coleman. Thank you, Mr. Dunne. Thank you, Mr. 
Chairman.
    Senator Akaka. Thank you. Senator Pryor.

               OPENING STATEMENT OF SENATOR PRYOR

    Senator Pryor. Thank you, Mr. Chairman.
    I know we have another panel, so I am going to try not to 
keep this panel too long, but let me start with a question for 
you, Mr. Cannon, if I may. It is really one question, but I am 
going to ask it in a series; but it has to do with 
communication and coordination. We have several agencies here 
today and they all have independent statutory authority, so 
when I see all these agencies lined up, the questions I have 
are after an initial explosion or an initial incident: Who is 
in charge initially? Are there criteria for when States can and 
should ask for Federal help? Once the Federal Government gets 
involved, how does DHS determine which agency should be the 
lead agency and the lead coordinating agency? Who has the final 
decisionmaking authority? Do the roles of the agency change 
over time and do certain things get handed off?
    We don't have time to go into all of that in the limited 
time we have today, but the question I have for you is: Are you 
confident in the system that we have in the event, heaven 
forbid, that there is an incident in this country? Are you 
confident that we will be prepared with the right authority and 
the right agencies to work through it?
    Mr. Cannon. Yes, sir, I am, and I can say that because 
there have been significant changes in that system in the last 
2 years. We have all learned many lessons from the past and all 
these members today are signatories to the National Response 
Plan. All agreed that the coordination will occur through the 
National Response Coordination Center, where they all have a 
seat. They all come down to sit and be engaged with subject 
matter experts to coordinate.
    It is the Department of Homeland Security's responsibility 
to protect the homeland and to coordinate a response to those. 
Now in terms of our involvement, local governments have the 
initial response authority and the system used for a radiation 
incident in terms of the Federal Government access and 
involvement is the same as if it is a hurricane or a tornado. 
If the locals are overwhelmed, then they request through the 
series.
    Our role is to make sure that when it gets to the Federal 
Government, that our response is in a coordinated, effective 
manner, and you are exactly right. People with independent 
authorities do have the ability to respond, but we need to make 
sure that is a unified effort of response so that we provide 
the best thing in the shortest time possible, and we exercise 
that and we do that in day-to-day activity.
    Senator Pryor. So you have confidence in the system we have 
in place, then?
    Mr. Cannon. I do, sir.
    Senator Pryor. Let me ask Dr. Aoki a question about 
something that the GAO found not too long ago. The GAO says 
that the DOE has the capability to survey American cities to 
create a baseline map when it comes to radiation and that there 
is some funding out there available for this. It sounds like 
that has not been done. If we have both the capability to do it 
and the money to do it, why aren't we doing it?
    Dr. Aoki. Senator Pryor, I think we discussed this a little 
bit before you came in, but we are actually now moving in 
cooperation with DHS to first start out with a pilot program in 
Chicago and then possibly move on to other major metropolitan 
areas. The funding will be DHS grant funding to cities, and at 
least with the Chicago experience, what they are proposing to 
do is to purchase equipment that would be flown on their 
aircraft, their helicopters that are operated by the police 
department, and then we would assist them in planning and 
conducting the survey portion of that activity. I think we want 
to assimilate the lessons from doing this in one additional 
city and then see if that can be translated into many more.
    Senator Pryor. And so do you have a timetable to move 
through the cities to try to get the site maps that you need?
    Dr. Aoki. We don't have a firm timetable. We expect to get 
the work in Chicago done this year, or I guess 2008, but we 
will then see from that what is appropriate to do and how many 
more cities might be interested. They have an expression of 
some interest from a number of other cities.
    Senator Pryor. OK. Mr. Cannon, let me ask you one further 
question, and that is that one of the lessons learned from 
Chernobyl was that the radioactive contamination can't just be 
washed away. It gets into the dirt or concrete, and you can't 
just wash it away. It gets in the groundwater and it stays 
around for a long time.
    Are there any Federal guidelines about what to do with 
contaminated dirt or concrete or other materials that would be 
identified during the clean-up effort? What are we going to do 
with all that material?
    Mr. Cannon. Senator, I believe that would be an EPA issue.
    Senator Pryor. OK. Sure.
    Mr. Dunne. Senator, there is limited capacity in this 
country to take radiation debris. There are only a handful of 
places we could put it. If you took the scenario that is 
presented, depending upon what we found, we would have to 
improvise, working with State and local governments and other 
Federal agencies in terms of finding adequate storage because 
it just plain doesn't exist on any massive basis and we just 
haven't had that many radiological disposal issues to deal 
with.
    Senator Pryor. Is the EPA taking steps and doing----
    Mr. Dunne. We have done an analysis of where it is. As you 
know, permitting for those types of facilities involve not just 
Federal Government issues, they involve State and local issues, 
and it takes a concentrated effort, a long-term effort to be 
able to get those capacities developed.
    But as is somewhat similar to the lab capacity problem 
nobody is going to build these things unless they are used, and 
you just don't go and create a hole in the ground so you can go 
dispose of this type of material. So it is a very complicated 
issue. But that is a significant gap if we ever do have an 
attack.
    Senator Pryor. Is the EPA trying to fill that significant 
gap?
    Mr. Dunne. Yes. We are dealing through our Office of Solid 
Waste and Emergency Response with this issue now, but it is a 
long-term problem and we have analyzed the problem, I think, 
adequately well. It is what is going to be your planning 
premise in terms of what you are going to do about disposal.
    Senator Pryor. Thank you, Mr. Chairman.
    Senator Akaka. Thank you very much, Senator Pryor.
    Senator Pryor. I am going to go into a second round here of 
questions. I want to first follow up with Dr. Aoki. You stated 
that the Radiation Emergency Assistance Center and lab is set 
up to deal with people who receive large radiation doses. What 
about those who receive low doses, which is more likely as a 
result of a dirty bomb attack?
    Dr. Aoki. Well, clearly, the large numbers of people 
affected are most likely going to receive relatively low doses 
of radiation, and again, I think Dr. Yeskey talked about the 
need to strengthen the clinical laboratory capacity around the 
country to create a network of laboratories that can do things 
like urinalysis or other clinical procedures to assess people 
who may have received relatively low doses of radiation. There 
constantly will be a few individuals who, depending on the 
exact details of a scenario, there may be a few individuals who 
receive a relatively high dose and that really is the 
background of the capacity that we have put in place.
    Senator Akaka. Mr. Cannon, DHS has established a National 
Technical Nuclear Forensic Center within the Domestic Nuclear 
Detection Office which is supposed to provide an enduring 
national technical nuclear forensics capability. However, Dr. 
Carol Burns from Los Alamos National Laboratory testified in 
front of a House Homeland Security Subcommittee that this 
capability is aging rapidly. What is DHS doing to correct this 
problem?
    Mr. Cannon. Sir, I will have to get back to you on that.
    Dr. Aoki. Senator, if I may----
    Senator Akaka. Dr. Aoki.
    Dr. Aoki [continuing]. With your permission--they always 
say, don't volunteer for anything, but if you don't mind, Los 
Alamos National Laboratory is a DOE laboratory and let me just 
comment quickly on some of the things that we see we need to 
do.
    We are in the process of resizing and recalibrating the 
size and scope of our National Laboratory System, and one of 
the things that is very much in our minds is the need to make 
sure that the National Laboratories are responsive to the 
national security challenges of the future as we move away from 
the sort of legacy issues of nuclear weapons and the Cold War. 
So this is a planning process that really is going on as we 
speak, but I think we are very much seized with the idea that 
we need to make sure that our National Laboratories actually 
have the ability to fulfill these new sorts of missions and are 
planning appropriately to do work for things like nuclear 
forensics. It is both facilities, aging facilities, and 
ensuring that we have the right people, but we really do have 
to think about that and are doing so.
    Senator Akaka. Dr. Yeskey, during TOPOFF 4, Prussian Blue, 
one of the few medical countermeasures available for radiation 
exposure, was distributed to victims of the theoretical dirty 
bomb attack. It is part of the National Stockpile. However, 
according to the Food and Drug Administration, Prussian Blue is 
available only by prescription and should be given only under 
the supervision of a physician after assessing a victim's 
medical condition. In addition, its effectiveness is limited. 
Can you describe the work you are doing to develop medical 
radiation countermeasures for exposure to other radioactive 
sources that could be used in a dirty bomb attack?
    Dr. Yeskey. That is an area of Dr. Hatchett's expertise and 
I will turn it over to him.
    Senator Akaka. Dr. Hatchett.
    Dr. Hatchett. Mr. Chairman, I represent the Radiation 
Countermeasures Program at the National Institutes of Health. 
We have a broad-based program that focuses on the development 
of radiation countermeasures for high-dose exposures that might 
produce bone marrow suppression, gastrointestinal injury, other 
types of organ injury. We also have programs within the NIH 
program that focus on the development of countermeasures like 
Prussian Blue, which are primarily designed to remove 
radionuclides from patients' bodies. We have a number of grants 
and contracts to develop improved countermeasures with greater 
efficacy that would be nontoxic. Those countermeasures are in 
early stages of development and face quite a long road before 
they would be licensed and ready for use in the field.
    Senator Akaka. Mr. Dunne, TOPOFF 4 only exercised the 
immediate and near-term response to a dirty bomb attack. I am 
pleased that DHS is planning a long-term recovery tabletop 
exercise to be conducted next month. Will this exercise, Mr. 
Dunne, focus more attention on consequence management in the 
aftermath of such an attack?
    Mr. Dunne. Mr. Chairman, that is the purpose of it. As I 
understand it, it will be a 2-day tabletop session. We will 
bring together a variety of Federal and State agencies that 
deal with this. I understand DHS will issue a total report on 
TOPOFF 4 and that would include the part that deals with 
restoration and recovery.
    Senator Akaka. You mentioned DHS. Can you describe the role 
of EPA in that exercise?
    Mr. Dunne. The EPA will take over as the lead Federal 
agency and coordinator for the restoration and repair of the 
affected sites. That would mean we would deploy numbers of 
people and contractors in EPA, to work with the State and 
locals to clean up the facilities. We have 350 emergency 
response personnel. They are highly skilled. They are 
scientists and engineers. We have contractor capability to 
reach back. When you take a look at the magnitude of three, you 
would be talking about having to augment this with additional 
personnel because of the amount of time that people can stay in 
a zone where they are exposed to radiological doses.
    Senator Akaka. Thank you very much. Senator Coleman.
    Senator Coleman. Thank you, Mr. Chairman.
    Dr. Yeskey, you discussed the web-based cycle at Radiation 
Event Medical Management, the physicians, medical personnel, 
using just-in-time information on the medical management of 
radiation injuries. I think your testimony was if there were an 
incident, that folks could go on the web and they could get the 
information. My concern is similar to what happened in 
September 11, 2001. You have an incident, the web slows down or 
becomes inaccessible. What is the plan B?
    Dr. Yeskey. One of the ways to pass that information out--
and the REMM is not the only site that is available for this 
type of information--CDC also has on its website information 
that can be used. There are other mechanisms, such as the 
Health Alert Network System, that can pass along information. 
There is what CDC has developed called EpiAccess. It is for 
passing epidemiologic information to State health officers 
through fax machines, through other methodologies, 
telecommunications methodologies to do that. So there are 
redundant systems for getting that communications out.
    Again, what we would do is we would have our CDC personnel 
contact State and local health officials. Our Regional 
Emergency Coordinators would also help determine what kind of 
information is needed and how to best pass that if one of those 
methodologies would go down.
    Senator Coleman. And are there specific contingency plans 
in place so that plan A is directing people to web sites, and 
there are specific contingency plans? One of the important 
parts of this hearing is you have multiple agencies and they 
all have capacities. I am not worried, but focused on the pre-
incident planning and coordination so that when it happens, 
people just respond because they have been trained to respond. 
Do we have that in place?
    Dr. Yeskey. I think we have redundant systems that can be 
used to get that passed, so if one fails, then we would go to 
the next one and go to the next one.
    Senator Coleman. And again, I mentioned the planning. We 
had the terrible incident of the bridge being destroyed in 
Minnesota and one positive thing was that we were prepared. I 
was a mayor on Sepember 11, 2001, when we didn't know how many 
hospital beds we had available in the case of a major incident, 
when we didn't have systems of communication between sheriffs' 
offices and police departments, but now all that training that 
we did is paying off. People just knew exactly what they had to 
do. I know we have the systems, but do we have in place the 
preplanned, coordinated response? For example, if plan A 
doesn't work, do we go to plan B?
    Dr. Yeskey. Yes, sir. That is included, as I mentioned, in 
the RDD ESF-8 Playbook that we have developed and tested during 
TOPOFF 4, so those kinds of plans for contingencies are 
included in the playbooks for how we would respond to those 
events.
    Senator Coleman. Dr. Hatchett, you actually mentioned the 
response to the question regarding treatment. There is a 
Minnesota company called Humanetics. They work with the Defense 
Department on food-based responses to radiological attacks. 
Again, the coordination issue. How well coordinated, how well 
tied in are you at Health and Human Services to that kind of 
research?
    Dr. Hatchett. Historically, Senator Coleman, as you 
probably know, a lot of this research has been performed by the 
Department of Defense over the last several decades. Our 
program was initiated in 2005. We have worked very closely with 
the Department of Defense, with our colleagues at the Armed 
Forces Radiobiology Research Institute, and at the Joint 
Program Executive Office to coordinate research programs. We 
actually have an interagency agreement with the Armed Forces 
Radiobiology Research Institute and fund research of mutual 
interest there. In the last fiscal year, we had coordinated 
releases of initiatives focusing on gastrointestinal acute 
radiation syndrome with the Joint Program Executive Office and 
we funded 10 grants for early-stage research. They are still 
evaluating their RFP in that area. So we work very closely.
    Senator Coleman. How close are we to having in place, and 
understanding--and again I use Humanetics as an example. They 
are a recipient of a number of grants moving forward in this. 
How close are we to having a system in place that, should there 
be an attack, we would be able to distribute beyond the 
pharmaceutical approach, food stuffs and other things. How 
close are we to saying, ``OK, we have something now that if it 
hit, we can use it?''
    Dr. Hatchett. Sir, is your question what is the status of 
the medical countermeasures that we are developing, or is it 
more a question related to the response mechanisms, because I--
--
    Senator Coleman. I am looking at the status.
    Dr. Hatchett. OK.
    Senator Coleman. And if something happened, I want to know, 
would we be prepared to take something that is in experimental 
phase or do we have a level of confidence in some of these 
food-based substances or others that we could readily then 
distribute them through the systems that are in place?
    Dr. Hatchett. Sir, if I could answer part of the question 
and defer to Dr. Yeskey for part of the question, our goal at 
the Radiation Countermeasures Program is to bring 
countermeasures forward to licensure for the radiation 
treatment indications so that we have great confidence that the 
drugs will actually work. We have a number of products that we 
are evaluating currently. They are in various stages of 
development, various stages of testing. Some of them are closer 
than others, certainly, and could potentially be ready within 
the mid-term, which I would define as 3 to 5 years, because of 
the testing that would be required to achieve licensure and the 
FDA review time.
    In terms of other mechanisms for bringing experimental 
countermeasures to individuals who might need them, let me 
defer to Dr. Yeskey.
    Dr. Yeskey. I think one of the mechanisms we have for that 
is what is called the Emergency Use Authorization, and that is 
for medications that are either not approved or are not 
approved for the specific indication. They have been otherwise 
approved for other indications. So we have that mechanism that 
HHS can employ to bring those countermeasures to use by the 
public.
    Senator Coleman. That is very helpful, Dr. Yeskey. Thank 
you, Dr. Hatchett. Senator Pryor.
    Senator Pryor [presiding]. Thank you, Senator Coleman.
    We are going to move on to the second panel now, so I would 
like to ask the staff to make the arrangements there and I want 
to thank the first panel for all that you have done, the time 
to prepare, to be here. I know you put a lot of effort into 
this, so I appreciate it.
    While the first panel is leaving and the second panel is 
coming up, let me just say a few words. I would like to 
reiterate Senator Akaka's thanks to the first panel and some of 
the things he said in his opening statement.
    Our second panel today will focus attention on our response 
plans at a local and a community level. I would especially like 
to welcome Wayne Tripp from my home State of Arkansas, who will 
be testifying about the importance of radiation detection and 
decontamination training for first responders.
    But before we get into all the introductions and what 
everybody is going to say, I would like to say this, that we 
know that the dirty bomb threat is real and it is a legitimate 
danger. There are two factors that make this particular kind of 
terrorist attack possible. First, you have motivation. Second, 
you have capability.
    Since Osama bin Laden has announced that it is his 
religious duty to inflict terror on the United States through 
weapons of mass destruction, we know that the motivation 
exists. We also know that it is easier for a terrorist group to 
develop a dirty bomb capability than a nuclear bomb capability. 
Unlike a true nuclear weapon, a dirty bomb doesn't require a 
nuclear reaction. It only requires some means of dispersing 
radioactive materials.
    The most likely scenarios involve a conventional bomb laced 
with stolen radioactive material. Exploding a dirty bomb in an 
American city would widely disperse radioactive materials and 
create a public panic, but the actual casualty rates would 
likely be low, probably in the tens or maybe hundreds of 
fatalities. However, the combination of panic, the reaction of 
the panic after the bomb, and the resulting economic 
devastation could cause an affected area to be abandoned for 
years.
    Luckily, we have emergency managers and community leaders 
across the country who are taking steps to prepare for a dirty 
bomb event now. They have been participating in national 
exercises so that State and local leaders know how to 
coordinate with FEMA and DHS. They are learning to use 
detection equipment and to work while wearing HAZMAT suits. 
They are also thinking ahead about the psychological and 
economic needs of our communities in the aftermath of a 
radioactive weapon.
    In Washington and across the country, we appreciate and 
encourage these efforts and I am eager to learn today how 
Congress can best help first responders.
    So I want to thank the second panel for being here. We are 
going to have Senators coming and going today. We have a busy 
floor schedule. There is a lot going on in committees around 
here, as well. I'd like to notify the panel that you may get 
some questions in writing after this because not all Senators 
can attend the hearing today.
    Let me go ahead and introduce the first witness. Ken 
Murphy, Director of the Oregon Department of Emergency 
Management. Mr. Murphy joined the agency in 1999 and served as 
Administrative Operations Manager and Deputy Director prior to 
becoming Director. He has extensive experience in the Army, the 
National Guard, and on various Homeland Security advisory 
councils.
    Then I would like to hear from Thomas Tenforde. He will be 
our second witness. He is the President of the National Council 
on Radiation Protection and Measurements. Mr. Tenforde 
specializes in developing plans to protect communities from the 
psychological and economic consequences of a dirty bomb. He has 
a B.A. in physics from Harvard and a Ph.D. in biophysics from 
UC-Berkeley and has written over 150 scientific articles and 
reports, and he is with a fellow named Dave Shower today, and 
he played college baseball with a very good friend of mine who 
now lives in Little Rock. So anyway, I want to get acquainted 
with you after the hearing.
    Last would be Wayne Tripp. He is the Program Manager of the 
Domestic Preparedness Equipment Technical Assistance Program 
and he oversees a variety of training programs to help first 
responders use nuclear and radiological detection equipment. He 
also supports the development, analysis, and testing of 
emergency management, disaster and interoperability 
communication plans for the government and for private sector 
clients.
    So again, I want to thank you all for being here today, and 
Mr. Murphy, if we can start with you.

TESTIMONY OF KENNETH D. MURPHY,\1\ DIRECTOR, OREGON DEPARTMENT 
                    OF EMERGENCY MANAGEMENT

    Mr. Murphy. Thank you, Chairman Pryor and Members of the 
Subcommittee, for the opportunity to provide you with this 
statement for the record on Oregon's Top Official 4 exercise. 
In my statement, I am representing the State of Oregon and the 
Office of Emergency Management which is a division of the 
Oregon Military Department.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Murphy appears in the Appendix on 
page 108.
---------------------------------------------------------------------------
    One of the great benefits of participating in this exercise 
was the almost 2 years of planning by all levels of government, 
the private sector, and some of the most valuable learning and 
training took place during the planning phase. There are four 
key areas I want to highlight: Learn and work with your mutual 
aid partners as much as you can; learn and practice with your 
State and Federal partners; good coordination with policy 
makers is essential; and cooperation with the private sector is 
critical to success.
    The Radiological Dispersion (RDD) was somewhat new to 
portions of the first responder community. In preparations for 
this exercise, it was very important to understand what a RDD 
was, its characteristics, its intended purposes. It became very 
important to learn as a group of first responders, to include 
those jurisdictions that would or could provide mutual aid. 
This allowed for a common understanding of procedures, 
equipment, and actions to take place during this type of an 
event.
    Working with State and Federal partners is where I believe 
some of the best relationships and learning experiences took 
place. The practice with State and Federal partners provided 
local responders with another set of tools that help them 
determine how far they could go or should go in dealing with a 
RDD. This also taught the State and Federal entities what the 
local first responders were capable of and how the State and 
Federal partners could be more effective during the initial 
stages of a RDD.
    The local first responders and the State of Oregon's 
National Guard Civil Support Team worked very well together in 
the initial stages of the event. The Civil Support Team was 
able to provide more technical assistance immediately and long-
term support to the incident commander. Additionally, as the 
exercise continued and Federal assets arrived from the 
Department of Energy and the Environmental Protection Agency, 
this provided the first responders with more tools and allowed 
them to deal with other residual events from the RDD, such as 
the plume moving and requiring first responders to block off 
more streets or specific areas of the city.
    Information from the incident scene must flow quickly and 
accurately in which to support policy makers. The information 
must be accurate and disseminated from the incident command 
post to policy makers to support their decisionmaking and their 
communications strategy. It is also important this information 
be flowing to more of the technical experts, allowing them to 
provide the science and the advice to policy makers.
    Working with the private sector was a rewarding experience. 
We had approximately 70 private sector partners participate 
during the planning process and exercise. We had utilities, 
banking, transportation, commercial retail, and manufacturing, 
just to name a few, that participated. There is no question or 
doubt that the private sector must be part of every phase of a 
city, county, and State's planning effort for any event, to 
include a RDD.
    I have four areas I want to highlight with the private 
sector: Being part of the entire process, being part of 
government communications; being part of government or 
emergency operations centers; and being part of the 
decisionmaking process for recovery.
    The private sector has very qualified and trained personnel 
to deal with emergencies. In the government sector, we must 
take advantage of this expertise and integrate these 
professionals into each level of government as we plan, train, 
and exercise. The private sector was involved in the planning, 
which made a difference in how we responded and how we started 
to deal with short-term and long-term recovery.
    As an example, when a first responder had to deal with a 
private sector entity that was in the plume, the responder did 
not have to deal with that entity as they might with a 
neighborhood. The private sector was better prepared and put in 
place a business continuity plan, thus allowing the first 
responder to attend to the needs of others.
    When something bad happens, it is imperative that the 
private sector is notified just as soon as possible. In Oregon, 
we created an e-mail and phone system to notify the private 
sector. This system was for larger organizations. We need to 
improve upon this in trying to reach private sector groups of 
different sizes. We are looking at using professional 
organizations or business alliances to act as focal points 
during the initial alert phase of an incident and have them 
relay the message. The private sector organizations in the 
greater Portland area are creating a regional communications 
network for emergencies to begin to address communications. I 
think this will work well, but we need to expand it State-wide.
    One of the challenges is to have the private sector 
representatives in Emergency Operations Centers (EOC). The real 
issue here is how to organize the private sector so as to have 
one representative or a small group in the EOC that can 
coordinate with multiple private sector organizations. The 
representatives must be integrated into the State and local 
government EOCs and able to provide relevant information to 
multiple private sector organizations.
    This will require some training in the National Incident 
Management System and participating with the government in 
training exercises. But, I would also submit that government 
personnel should receive training to participate in private 
sector exercise. During the exercise, it may be very helpful to 
have the private sector become part of or know what decisions 
are being made. In the response phase, this has allowed the 
private sector to know what decisions would affect their 
business functions. Additionally, they can in some cases offer 
resources or personnel that we in government may not realize.
    Also during the response phase, the private sector can also 
help in advising or recommending courses of action which may 
affect initial recovery plans. The private sector is key to how 
the government entities begin to address short-term and long-
term recovery in the decisionmaking process.
    TOPOFF 4 was very intense and a rewarding event for Oregon 
and the City of Portland. We learned a great deal and are still 
learning. We conducted a short-term recovery tabletop the 
Monday after the exercise finished, and as was mentioned 
earlier, we are now preparing to do a long-term tabletop 
recovery with our Federal partners on December 4 and 5 here in 
Washington, DC. As with any exercise, we must now clearly 
identify all the lessons learned, correct them quickly, and 
retest the plans and actions to ensure that we have the best 
procedures and plans in place.
    I appreciate Congress's attention and focus on RDDs, the 
first responders, and the private sector. I thank you for this 
opportunity to testify on behalf of the State of Oregon.
    Senator Pryor. Thank you. Dr. Tenforde.

TESTIMONY OF THOMAS S. TENFORDE,\1\ PRESIDENT, NATIONAL COUNCIL 
            ON RADIATION PROTECTION AND MEASUREMENTS

    Mr. Tenforde. Senator Pryor, thank you very much for 
providing an opportunity for the National Council on Radiation 
Protection and Measurements to present its views on the 
important issues that are faced by the United States in 
preparing for potential acts of radiological terrorism and also 
to briefly describe the role of NCRP in providing guidance to 
the government and the public on this very important subject.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Tenforde appears in the Appendix 
on page 114.
---------------------------------------------------------------------------
    NCRP is a nonprofit organization that was founded in 1929 
and was chartered by Congress in 1964 under Public Law 88-376 
to serve as a national resource for recommendations on 
radiation health protection and radiation measurements.
    In October of 2001, 1 month after the tragic September 11, 
2001 event, NCRP issued its Landmark Report No. 138 on 
management of terrorist events involving radioactive material. 
This report has subsequently been supplemented by a series of 
NCRP publications on the important subjects of, first, 
preparing emergency responders for nuclear and radiological 
terrorism; second, ensuring operational safety of security 
screening systems for use at ports of entry into the United 
States and in public areas, such as airports; and third, 
providing medical care for responders and members of the public 
who might be contaminated with radionuclides as a result of an 
act of radiological terrorism.
    Another new activity of NCRP supported by the Department of 
Homeland Security is the preparation of a report on key 
decision points and information needed by decisionmakers in the 
aftermath of a nuclear or radiological terrorism incident. This 
report will address many of the issues of interest to the 
Senate Committee on Homeland Security and Governmental Affairs 
related to effective command and control actions by local, 
regional, Tribal, State, and Federal responders to an act of 
radiological terrorism. It will in many ways be complementary 
to the National Response Plan and will be a document that can 
be used as a basis for responder training and for carefully 
coordinating the actions that must be taken during response to 
a radiological terrorism incident.
    NCRP and the members of its expert scientific committees 
have remained current in evaluating the preparedness of the 
United States at the Federal, State, and local levels for 
responding to potentially catastrophic acts of radiological 
terrorism. On this graphic, I have depicted our view of the 
three primary components of readiness for such acts.
    The basic elements of this triangle are at the base 
detection and deterrence, and that involves, of course, 
developing methods for detection and deterrence of entry and 
use of radiological materials for terrorist actions. Second, 
should there be a RDD or Improvised Nuclear Device incident, it 
is essential to mount a rapid and effective response to a 
nuclear or radiological terrorism incident. And then the last 
phase is performing optimized recovery and restoration 
activities in sites that are radioactively contaminated by acts 
of terrorism. So this is our somewhat high-level and rather 
simple view of the key elements of U.S. preparedness for 
radiological terrorism.
    We have submitted a 5-year proposal to the Department of 
Homeland Security for the preparation of new reports that will 
address specific issues in each of these areas that have not 
previously been addressed in a comprehensive manner. The 
writing of these reports will involve the efforts of both 
scientists and stakeholders at the local, State, and Federal 
levels involved in preparing for effective responses to 
radiological terrorism.
    A more detailed discussion of the key issues that must be 
addressed to improve the preparedness of the United States for 
potential acts of nuclear radiological terrorism is contained 
in my written testimony.
    I wish to again thank Senator Pryor and the Subcommittee 
Members for giving me this opportunity to present NCRP's views 
on actions that must be taken to improve the readiness of the 
United States for acts of radiological terrorism. I will 
conclude by stressing again that NCRP is uniquely qualified to 
assist in strategic planning as the United States prepares for 
potential acts of radiological terrorism. Thank you very much.
    Senator Pryor. Thank you. Mr. Tripp.

   TESTIMONY OF WAYNE J. TRIPP,\1\ PROGRAM MANAGER, DOMESTIC 
      PREPAREDNESS EQUIPMENT TECHNICAL ASSISTANCE PROGRAM

    Mr. Tripp. Chairman Pryor and Members of the Subcommittee, 
I greatly appreciate the opportunity to talk with you today 
about something that is very important to me and my program, 
which is the preparedness of our Nation's first responders and 
first receivers.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Tripp with an attachment appears 
in the Appendix on page 119.
---------------------------------------------------------------------------
    The Domestic Preparedness Equipment Technical Assistance 
Program, or as we refer to it since we get tongue-tied easily, 
DPETAP, is a partnership between the Pine Bluff Arsenal, the 
Department of Homeland Security, and is operated by General 
Physics. DPETAP is a nationwide technical assistance equipment 
training program on capabilities and limitations of chemical, 
biological, radiological, and nuclear detection, protection, 
decontamination, and response equipment for our Nation's first 
responders and first receivers.
    I am going to focus my discussion on what we have observed 
during our more than 7 years of providing DPETAP technical 
assistance to more than 82,000 responders from 45 States, two 
Territories, and the District of Columbia. More than 15,000 of 
these participants have received radiological detection 
training.
    In the field, the majority of detectors that we have 
observed tend to be of two types, portable survey meters and 
personal radiation detectors. A personal radiation detector is 
essentially a small item that a responder would carry on their 
belt, such as this pager model, to alert them that there is an 
increase in the level of radiation. It is a first alert system, 
doesn't tell them a significant amount about what the threat 
they are facing is, just that there is something potentially 
there.
    Portable survey meters are things such as these two models 
here. These are used to both identify the type of radiation 
that might be present in an area as well as the intensity and 
distribution of that radiation. It is useful for both surfaces 
as well as for personnel, to identify whether casualties have 
radiological contamination on them.
    In terms of the participants in our training, we found that 
more than 74 percent of those who have attended the DPETAP 
training have come from the fire service. About 6 percent are 
from law enforcement, and the remainder are from a number of 
different disciplines. The types and distribution of equipment 
vary widely across agencies and across the Nation, as well as 
the age of the equipment they are using and their familiarity 
with it.
    The rapid identification of the risk of radiation, as was 
mentioned on the earlier panel, is critical activity. The 
sooner it is identified, the sooner appropriate protective 
measures are taken. One of the key actions that should occur is 
decontamination, the removal of radiation the victims and from 
evacuees from an affected area. Ideally, this happens very 
close to the incident site.
    DPETAP has provided decontamination training to more than 
6,500 responders and first receivers in 443 agencies. The 
training provides them with the skills and abilities to 
implement their plans and their procedures to rapidly process a 
large number of potentially contaminated individuals. We found 
that this is a very important type of training, particularly 
for hospitals that would be on the receiving end of any self-
evacuated casualties.
    The training we provide on decontamination and detection is 
only one component of achieving proficiency. The personnel need 
to also be working under appropriate plans and procedures that 
identify when to deploy their technologies, when to use them, 
and what to do if radiation is detected. These plans, 
procedures, and the training are validated using exercises such 
as TOPOFF 4. A well-designed exercise and well-evaluated 
exercise develops an after-action report and improvement plan 
that identifies very specific recommendations for additional 
training, planning, or procedures that is based on solid 
guidance or standards.
    Fortunately, the vast majority of explosions in this Nation 
are not radiological. The response to one that does contain 
radiation, however, will likely begin the same as every other 
response to an explosion. Early use of detection to identify 
the presence of radiation is critical to stopping the spread by 
evacuation of contaminated individuals and casualties to the 
hospitals and ensuring that those affected are appropriately 
protected and decontaminated.
    The continuous cycle of planning, training, and exercises 
with effective after-action review and improvement planning is 
key to the long-term enhancement of the front-line personnel 
across the Nation that would be called upon to respond to a 
terrorist incident.
    Thank you for the opportunity to talk with you today and I 
am available to answer any questions you may have.
    Senator Pryor. Thank you. I thank all of you for your 
comments.
    Let me start with you, if I might, Mr. Tripp. And again, 
welcome to Washington. It is good to have you up here from 
Arkansas. Just so everybody will know, we have been fighting in 
the full Committee and my office to keep the funding for 
DPETAP, because it is a very economical way to do training and 
to help first responders and first receivers out there around 
the country do what they are supposed to do. It has been a very 
strong program for a long time, so we are going to continue to 
fight for that fight up here.
    Let me ask about the existing State guidance that the 
Federal Government is giving about national agencies being 
involved. At DPETAP, do you all get into some of that, sort of 
the chain of command issues when there is an incident like 
this, where does the Federal Government fit in, where do the 
State people fit in, where do the local people fit in? Do you 
all get into that?
    Mr. Tripp. To a certain degree. All of our technical 
assistance training, particularly our practical exercises, 
incorporates the National Incident Management System (NIMS), 
into our framework. As part of the training around the 
deployment and the operational survey techniques and advance 
survey techniques, we also provide information about reach-
back, what agencies are appropriate, might be available to 
support the responders, and the appropriate methods for 
activating that support, working through the chain of command 
from the incident command or the unified command post through 
the local or county Emergency Operations Center, then through 
the request up to the State Operations Center, to have them 
request appropriate Federal support.
    Senator Pryor. In your testimony, you talked about human 
exposure to radiological materials and the contamination of 
people, and as I understand it, and you tell me if I am wrong, 
if you respond quickly, it is fairly easy to get the radiation 
off a person. You take your clothes and have to dispose of them 
in some way and then you can basically wash off a lot of the 
radiation. Is that right?
    Mr. Tripp. That is correct.
    Senator Pryor. One of the problems is that if you inhale 
materials and somehow they get into your system, then that is a 
different matter. But just the more general exposure, if you 
act quickly, a lot of people will be perfectly fine. Is that 
your understanding?
    Mr. Tripp. That is a fairly accurate statement, yes, sir. 
The prompt removal of the radiation contamination from the 
exterior, from the hair, clothing, skin, removes the vast 
majority of risk for the individual if it is done quickly. The 
danger arises, as you noted, if the contamination gets inside 
the body through drinking water, inhaling it, through an open 
wound, and also from the contaminated individual leaving the 
incident site and bringing that contamination with them, 
whether it is to the hospital or to their home.
    Senator Pryor. Let me ask this. I know that you cited some 
statistics about DPETAP and how many you have trained, etc., 
but what is your impression of the percentage of first 
responders and first receivers out there around the country? 
What percentage of them have the appropriate level of training 
for something like this?
    Mr. Tripp. I believe, what we have seen through the DPETAP 
training, that the areas that have an awareness of the risk and 
an awareness of the threat, whether it is through a nuclear 
power plant or through a terrorist threat, there is a fairly 
high level of attention, training, and equipping that has 
occurred. In areas that aren't as aware of the threat or don't 
perceive it to be a threat to their area, there is a much lower 
level of preparedness and equipping.
    Senator Pryor. So you are talking about a geographical 
difference there, really. Is there also a difference or an 
unevenness in the training that people receive, say, for 
example, fire fighters versus policemen versus hospital workers 
versus whatever it may be, paramedics? Is that inconsistent 
from place to place, as well?
    Mr. Tripp. That tends to be much more consistent in the way 
the distribution breaks out. The vast majority tend to be fire 
fighters that have received detection-related training because 
of their generally dominant role or preeminent role in 
hazardous materials response. Law enforcement has received 
less. Most of what we have seen in terms of law enforcement 
have been things such as the radiation pagers, the personal 
alerting devices to warn them that there is a risk. Hospitals 
are increasing their level of awareness and their level of 
training, but there is still a significant gap between where 
they are and where they want to be.
    Senator Pryor. OK. Let me also ask, this is really for you, 
Mr. Tripp, and also for you, Mr. Murphy. In the event of a 
dirty bomb, heaven forbid that would happen, but in the event 
of a dirty bomb, the first consideration would be to identify 
and help those who have been directly affected by the blast or 
the radiation, but then there is a second priority which is 
also present and that is that basically this area is a crime 
scene. Does the response to the incident trample over the crime 
scene in such a way that we are destroying evidence or that we 
are not mindful of the investigation that is going to start 
very quickly after an incident? Do you all cover that in 
DPETAP, and I would like to get your thoughts on it, too.
    Mr. Tripp. In DPETAP, what we do is we stress the 
importance of awareness of their surroundings as they are going 
in to assist the victims, to be aware to try not to move 
things, watch what you are stepping on. If you observe 
something that looks like it might be important, mark it 
somehow so that it can be flagged as evidence. If you need to 
move it, make a note that you had to move it to access victims. 
But we stress the importance of maintaining the integrity of 
the criminal incident as much as you can while you are 
attempting to save lives.
    Senator Pryor. Mr. Murphy, did you all cover that in 
Oregon?
    Mr. Murphy. Yes, Senator, and I would just add to that 
something we did coordinate, and one of the benefits that has 
been around since the Department of Homeland Security started. 
A lot of the DHS training programs and their basic awareness 
courses and operation courses, incorporate addressing a crime 
scene in an event response. This is one of the common themes 
that we teach, or that we receive teachings on, is how to deal 
with the response versus a crime scene. But I suspect in 
reality, there is always a great chance that some of that 
potential forensics evidence could be destroyed, but that is 
something that is taught commonly and something that we 
prepared for TOPOFF.
    Senator Pryor. Mr. Murphy, let me ask you while I have you, 
I am curious about TOPOFF and your other experience there in 
the State of Oregon. I am curious about the intelligence and 
whether various intelligence agencies make threat assessments 
when they gather information. Is there a protocol or process 
that intelligence agencies go through that is a standard 
protocol or process where you are notified, you are alerted 
under certain conditions? What is your experience there?
    Mr. Murphy. Senator Pryor, my experience so far with this 
has been that you must have a well-established relationship 
with law-enforcement and intelligence in advance of the event. 
I think, with the law enforcement community, no matter who they 
represent--city, county, State, Federal, or the Joint Terrorism 
Task Force, building a relationship is critical. In Oregon, we 
have a relationship where they will alert me, maybe not be able 
to tell me all of the details because it does involve a crime 
or a potential crime, but very simple to let me know that 
within a certain time frame, this could happen or may happen, 
and they have also agreed to tell if it is imminent. This has 
been a fairly coordinated effort through the Fusion Center in 
the State and it has been just a good custom to let people 
know. They won't give you a lot of the details, but I know as 
far as I am concerned in my State, as long as I know the 
potential is there, I can start taking action. So I don't need 
to know a lot of the specific details.
    Senator Pryor. So just to clarify, are you talking about 
just the information being shared within the State or are you 
talking about when it comes down from the Federal level? In 
other words, are you involved at all when the intelligence or 
the threat assessments are made at the Federal level and when 
that is shared and how that is shared with the State?
    Mr. Murphy. Yes. I was speaking at the State level, but the 
Federal intelligence, we do receive that both through our 
fusion centers, the Homeland Security Information Network, and 
we are notified of that also, and that can either be by 
computer or actual telephone calls, because we are on a call-
down list for any type of intelligence that may be breaking or 
critical.
    Senator Pryor. As far as you can tell, that process is 
working well right now?
    Mr. Murphy. So far, yes, sir.
    Senator Pryor. Senator Akaka.
    Senator Akaka. Thank you very much, Chairman Pryor.
    Mr. Murphy. Welcome to this hearing. In your testimony, you 
stated that the dirty bomb was new to portions of the first 
responder community in Oregon. What kinds of training and 
equipment does the Oregon first responder community have to 
deal with a radiological incident, and do you believe what you 
have is adequate?
    Mr. Murphy. Thank you, Chairman Akaka. I would start by 
answering that in our larger metropolitan areas, such as 
Portland and some of the other cities, that they do have the 
capabilities, the equipment, and the training. As we prepared 
for TOPOFF, one of the points is you work with smaller 
jurisdictions that may become your mutual aid partners in some 
of the areas of the State that are not part of a metropolitan 
area.
    It became evident that we need to take into account maybe 
the smallest fire department or police department that you may 
not even think would ever be involved in something like that 
and, really, as I told my Governor as we went through TOPOFF, 
we were making decisions for one city and a few counties. What 
if this was 20 counties and 100 cities? So, you really need to 
take a look at making sure that the capabilities are everywhere 
in the State as best you can based on money and resources.
    And I think most of our major metropolitan areas are in 
good shape. We still have some areas, such as the personal 
protection detectors for radiological dispersion that were 
shown earlier in the hearing that I think would be good for law 
enforcement or some of the first receivers to have. But, most 
of the training and decontamination type of equipment is there. 
I am sure that we can have some more of it in more of our rural 
areas, but I think we are well prepared thanks to the TOPOFF 
effort.
    Senator Akaka. Thank you. Dr. Tenforde, in your testimony, 
you note that recovery and restoration plans for contaminated 
areas need to be developed. You then stated that you have 
proposed a report to EPA that would focus on aspects of the 
late-phase recovery and site restoration following a nuclear or 
radiological terrorist incident. My question to you is, has EPA 
accepted your proposal?
    Mr. Tenforde. I have talked with several members of the 
Office of Radiation and Indoor Air, which will take the lead at 
EPA on finalizing the Protective Action Guides that were 
originally developed by Homeland Security and issued in the 
Federal Register for comments. They recognize, I believe it is 
fair to state, that there is a need for a very well developed 
optimization plan, and that is not really described in depth in 
the Protective Action Guides as they exist now and may not be 
developed further before the Protective Action Guides are 
released.
    However, I know that EPA is determined to follow up on the 
need to develop formal procedures for optimizing the clean-up 
and restoration. One person in that office discussed with me 
the need to have some exercises, if you will, to look at 
coordinating and optimizing resources and cleaning up in a way 
that restores infrastructure, such as medical facilities, as 
quickly as possible, and then perhaps going on from there to a 
very detailed report, such as the one proposed by NCRP. So I 
believe that there is strong interest, but we don't have the 
funding yet to carry through on that plan.
    Senator Akaka. I see. Mr. Tripp, in your testimony, you 
point out that you have come across jurisdictions where 
radiation detectors had not been properly maintained or 
calibrated to be of any use to first responders following a 
radiological incident. Do you believe that State and local 
first responders need additional support so that the equipment 
is properly maintained over time, or is there a program for 
such?
    Mr. Tripp. Chairman Akaka, I am not aware of any specific 
program for the maintenance of equipment, although I believe it 
is authorized under certain of the Homeland Security grant 
programs. The key issue we identified was that some of this 
equipment was from the Civil Defense days. They had it for 10 
or 15 years, and had not really received any appropriate 
training on it in some time, which included the operation and 
the maintenance aspects of the equipment.
    To keep these types of detectors in operating mode, they 
need to periodically be calibrated to ensure that what they are 
reading on their display and what they are telling you for the 
radiation readings is accurate and dependable, and without 
those calibrations and the periodic maintenance, even things as 
simple as changing out the batteries so they don't corrode in 
it, the detectors become just another piece of equipment on a 
truck.
    Senator Akaka. How would that kind of assistance be 
provided and how frequently can it be done?
    Mr. Tripp. The frequency of the calibration depends on the 
specific type of equipment and also how it is done depends on 
the equipment. In some cases, it needs to go back to the 
manufacturer for calibration. In other cases, there needs to be 
a licensed or certified calibration facility that does the 
work.
    A program that the Department of Homeland Security teamed 
with the Department of Energy and Health Physics Society on, 
the Homeland Defense Equipment Reuse Program, which DPETAP was 
one of the training entities for, provided a lot of surplus 
detection technologies from the Federal Stockpile. They 
essentially went through the equipment, renovated it, made sure 
it was working, calibrated it before distributing it to the 
jurisdictions. That type of process makes a big difference in 
what is out there and the reliability of it. That was, again, 
in partnership with the Health Physics Society, providing 
certified health physicists to aid in that process.
    Senator Akaka. Mr. Murphy, do you have such equipment in 
your jurisdictions?
    Mr. Murphy. Mr. Chairman, most of it. But I want to get 
back to you with more specifics because it is relatively new. I 
am sure hidden on a shelf somewhere, there is a very old piece 
of equipment that has not been maintained, but I agree with Mr. 
Tripp. In a lot of the first responder organizations, 
especially in the more rural entities, you have volunteer fire 
departments that are not fully staffed or very small staffs and 
it is not only when you talk about this actual equipment that 
needs to be calibrated or as simple as battery changes, but 
these different types of personal protective suits have to be 
maintained and made sure they fit properly when there is a 
rotation of people and training. So, it is a pretty good 
challenge. For a lot of local first responders, especially when 
you get into the rural area. But again, we do have some of the 
more modern equipment, but I am sure we don't have enough of it 
spread out throughout our entire State.
    Senator Akaka. Thank you very much. Senator Pryor.
    Senator Pryor. Thank you. Let me pick up there if I may 
with you, Mr. Murphy. You went through the TOPOFF exercise, 
which sounds like it was a very good experience, but my 
experience with some of these exercises, I know the Stimson 
Center's Domestic Preparedness Project made the same comment, 
is that oftentimes a State will participate and that is great, 
but then after it is over, you are left with the dilemma of not 
having enough money to follow through on some of the needs the 
exercises made you aware of. Is that the situation that Oregon 
and other States are in, that you need more resources?
    Mr. Murphy. Senator, I think right now, it might be a 
little bit early in our process of our after-actions to 
determine all the things that we do need. The things that we 
have determined initially as far as updates to our plans and 
our procedures and things like that, I think we could take care 
of. If we do come across certain items that are equipment or 
require fairly large sums of money, I am hoping that as we 
continue through the Homeland Security Grant process or our 
State legislative process that we can build that into our State 
strategies and hopefully have them fund it. I don't have any 
specifics, but I would be happy to provide those at a later 
time, because I am sure some of them will cost money that we 
may not have.
    Senator Pryor. All right. Mr. Murphy, let me ask you and 
Mr. Tenforde a follow-up from the first panel. I asked a 
question about disposal, and I talked a little bit about 
Chernobyl. One of the outcomes of that situation is material 
that they didn't know what to do with. You heard one of the 
witnesses earlier say that basically the EPA doesn't really 
have a plan. They have thought about it, but it is a huge 
undertaking, long-term problem. Is that true on the State 
level, as well? Are the States looking at what to do with 
radiologically-tainted material?
    Mr. Murphy. Yes, Senator. I would tell you that the same 
problems or issues you may have heard in the first panel this 
morning are very similar to the State. One of my passions of 
this exercise that I feel is very important is what we are 
going to do about long-term recovery and whether it is debris 
or psychological issues or economic issues. We even learned 
from a few years back, Washington State had some potential 
``mad cow'' issues and we even had discussions about what to do 
with that type of debris, let alone something that is 
radiological.
    So it is something that we are clearly trying to figure out 
and I think as--it was mentioned earlier--we are having a 
tabletop exercise here in a couple of weeks in Washington, DC 
to just talk about those type of specific issues and identify 
the problems and what we might be able to do short-term and 
long-term to fix them.
    Senator Pryor. And Mr. Tenforde, did you have any comments 
on what to do with the nuclear or the radiologically-tainted 
material?
    Mr. Tenforde. I believe that is a very critical issue. 
Actually, it is part of the optimization process as we see it 
at NCRP, and which I believe others see it, as well, that one 
needs to carefully classify the contaminated materials that are 
generated through a RDD or other nuclear incident and treat 
them appropriately. There may be a possibility of using rather 
common landfill procedures that EPA uses to dispose of material 
that is not very contaminated.
    We do not expect for a RDD to have high levels of material 
contamination except perhaps in the immediate location of the 
event, and there may be many hundreds of thousands or even 
millions of cubic meters of very slightly contaminated material 
that needs to be appropriately either decontaminated or 
disposed of, and I believe that the representative, Mr. Dunne 
from EPA, stated, as well, that there is a national need for 
more landfills and other disposal mechanisms for low-level 
radioactively-contaminated materials.
    So I would agree, it is a serious need, but I believe that 
one has to approach this in a very systematic way that really 
looks optimally at the disposal options and doesn't discard 
low-level material treating it as high-level waste.
    Senator Pryor. Mr. Murphy, I had a couple more questions 
for you. Apparently Oregon has created a system to notify the 
private sector in emergencies. Is that working well, and could 
you just briefly describe what you do there?
    Mr. Murphy. Well, it is nothing fancy, Senator. It is 
really just using telephones and e-mails and trying to be able 
to focus on how you could call just one or two people in the 
private sector that could represent a larger group. We have 
been kind of experimenting, really, as you well know, and when 
you look at the entire breadth and width of the private sector, 
there are so many different parts and pieces, depending on if 
they are manufacturing or commercial or critical 
infrastructure.
    Between what we have used, and the private sector 
responsibility after TOPOFF to try and refine this system, we 
are looking at how to represent identify groups and then sub-
notify in maybe a cascading telephone tree or an e-mail tree 
and then other types of redundant communications and how they 
could be notified. For example, I would be notified that an 
event is pending or something has happened and we need them to 
participate.
    I will provide you the results as we work. We are going to 
start on a regional level in the greater Portland area and 
then, depending on what we learn, try and expand that State-
wide, and especially how do you account for the very smaller 
private sector organizations instead of the large ones.
    Senator Pryor. The last question I had for you, Mr. Murphy, 
is about the TOPOFF exercise. It seems to me it would be hard 
to duplicate the panic effect that you might have with a 
radiological incident. Do you feel like TOPOFF did a good job 
of trying to capture the sense of panic and the ramifications 
of mass panic?
    Mr. Murphy. Senator, I think they did a good job, but my 
staff would probably not agree. I think we would have 
protracted that aspect for a couple more days to try and create 
some more panic and make the people think about that, because I 
don't think we experienced enough during the exercise. The 
people that directly participated did have the experience and 
the virtual news network added to the experience, but to really 
experience the depth and width of what might happen to the 
panic that would come from the public, I don't think we got to 
experience as much as we should have, and especially for our 
policy makers and top officials and how would they deal with 
that. What is the communication strategy, because you have 
those that surely know they might be affected, you have the 
worried well, you have the people that may depend economically 
on a portion of Portland's economy and they are questioning and 
they are panicking. So I think we started into it, but we did 
not get to deal with it or practice the issues as much as I 
would have liked.
    Senator Pryor. Just as a personal note, we had a taste of 
that here in the Senate a few years ago. It was right before I 
came to the Senate, where they had the anthrax incident here. 
People didn't know what to do. When people don't know what to 
do, they always fear the worst, and the fear is real. That is a 
real factor in how we respond to this.
    Those are all the questions I have. Senator Akaka, do you 
have any more?
    Senator Akaka. Thank you, Senator Pryor. I have a few 
questions here.
    Mr. Tripp, you note that the Domestic Preparedness 
Equipment Technical Assistance Program has provided radiation-
related training to more than 15,000 first responders and first 
receivers since the year 2000, and I want to commend you for 
such efforts. What is the cost of an average training effort 
and who bears that cost?
    Mr. Tripp. Chairman Akaka, thank you for those kind words. 
There is no standard cost for one of our technical assistance 
trainings. It depends on a lot of variables, including the 
specific technologies we are training, how many different 
technologies--there are 36 different ones in our catalog right 
now, how many responders will be going through, how many 
different shifts we are going to cover.
    A rule of kind of a very broad assessment might be a 9-day 
technical assistance visit where each of the three shifts 
receives 3 days of training, and again, we will keep it fairly 
simple, it is three or four instructors for the schedule 
somewhere within a reasonable distance of Pine Bluff, where we 
are based, might be around $35,000.
    The cost of DPETAP is borne from a Department of Homeland 
Security, it is a contract funded by DHS through the Pine Bluff 
Arsenal. We also do make it available to jurisdictions to 
utilize their grant funds. If the funding for the contract is 
not adequate to cover the training, the jurisdiction is able to 
utilize grant funds to obtain that technical assistance.
    Senator Akaka. So there is grant funding that is available 
under Homeland Security?
    Mr. Tripp. To a certain degree, sir. Generally, it is the 
larger jurisdictions or urban areas, security initiative 
cities, areas like that that have those funds available.
    Senator Akaka. Mr. Tripp, in your testimony, you described 
a range of assistance and training you have provided to first 
responders and first receivers, including hospitals, in methods 
such as decontamination. Does your program provide training and 
use and distribution of medications, such as Prussian Blue, 
that are used if someone is exposed to radiation?
    Mr. Tripp. No, sir, we do not cover the medical treatment 
as part of our curriculum.
    Senator Akaka. I see. Mr. Murphy, in your testimony, you 
emphasized the importance of involving the private sector in 
response and recovery efforts in the aftermath of a dirty bomb 
attack. State and local governments receive Homeland Security 
grants to fund some of these functions. How would the private 
sector fund its role in emergency response and recovery, 
particularly since it is commercial property that is likely to 
be contaminated?
    Mr. Murphy. Chairman Akaka, I am not sure exactly how the 
private sector might deal with the funding of that, but I think 
as we go through this process, as I stated in my testimony, I 
do truly believe the private sector plays a key role in the 
response, or in the recovery effort, especially, because as we 
rebuild a city or a portion of a city, it is very important 
that it is a coordinated effort to restart that economic 
engine. If we do have commercial property that is damaged or 
destroyed or unusable, I think it is very important to 
initially try and figure out, could you move that business 
somewhere else in the city? How would you address that issue?
    Because as we have discussed throughout the testimony in 
the first panel and this panel, you may have an area that is 
not usable for a while until the truth and science and 
everything is determined. Initially, there may be a cost to 
bear, but I think that is something that we would have to 
discuss further down the road and how that would be taken care 
of financially if they had to pay for it.
    Senator Akaka. Well, I want to thank you all for your 
valuable testimony at this hearing. Dr. Graham Allison, 
Director of Harvard University's Belfer Center for Science and 
International Affairs and a well-known expert in nuclear 
terrorism and arms control recently said, ``The security 
community agrees that there will be a dirty bomb attack on an 
American city at some point. The puzzle is why it hasn't 
happened yet, especially since the means and motives are 
readily available.''
    Dr. Allison's comment puts a fine point on why Senator 
Pryor and I have convened this hearing. It is, as the hearing 
title indicates, not a question of if, but when a terrorist 
will succeed in launching a dirty bomb attack on U.S. soil. We 
must be prepared for such an eventuality. We must also be 
proactive in our preparedness and our efforts. We cannot afford 
to wait for another Hurricane Katrina-scale disaster to force 
changes and make fixes in our ability to respond to a 
catastrophe.
    Federal Government agencies such as DHS, DOE, EPA, and HHS 
must work together on a routine basis to hammer out the 
practical considerations involved in deploying a coordinated 
response to a dirty bomb attack. DHS must, in its lead role, 
work to ensure that the agencies listed in the Nuclear 
Radiological Incident Annex of the National Response Plan have 
clear guidance and are able to conduct the requisite medical 
and environmental analysis. If these capabilities are found to 
be lacking, they should be bolstered. If the expertise falls 
short, it must be supplemented. Anything less cannot be 
acceptable.
    The first panel of this hearing has shed some light on 
issues confronting the Federal response. The second panel aimed 
to shed light on issues involving responding to such an attack 
at the State and local levels.
    We are looking for information, data, and advice in what 
needs to be done in case of such attacks. I thank you so much 
for your valuable responses and your testimony to this 
Subcommittee.
    Are there any further remarks, Mr. Chairman?
    Senator Pryor. No.
    Senator Akaka. Well, with that, I thank all of you again. 
This hearing is adjourned.
    [Whereupon, at 12:21 p.m., the Subcommittees were 
adjourned.]


                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T0502.001

[GRAPHIC] [TIFF OMITTED] T0502.002

[GRAPHIC] [TIFF OMITTED] T0502.003

[GRAPHIC] [TIFF OMITTED] T0502.004

[GRAPHIC] [TIFF OMITTED] T0502.005

[GRAPHIC] [TIFF OMITTED] T0502.006

[GRAPHIC] [TIFF OMITTED] T0502.007

[GRAPHIC] [TIFF OMITTED] T0502.008

[GRAPHIC] [TIFF OMITTED] T0502.009

[GRAPHIC] [TIFF OMITTED] T0502.010

[GRAPHIC] [TIFF OMITTED] T0502.011

[GRAPHIC] [TIFF OMITTED] T0502.012

[GRAPHIC] [TIFF OMITTED] T0502.013

[GRAPHIC] [TIFF OMITTED] T0502.014

[GRAPHIC] [TIFF OMITTED] T0502.015

[GRAPHIC] [TIFF OMITTED] T0502.016

[GRAPHIC] [TIFF OMITTED] T0502.017

[GRAPHIC] [TIFF OMITTED] T0502.018

[GRAPHIC] [TIFF OMITTED] T0502.019

[GRAPHIC] [TIFF OMITTED] T0502.020

[GRAPHIC] [TIFF OMITTED] T0502.021

[GRAPHIC] [TIFF OMITTED] T0502.022

[GRAPHIC] [TIFF OMITTED] T0502.023

[GRAPHIC] [TIFF OMITTED] T0502.024

[GRAPHIC] [TIFF OMITTED] T0502.025

[GRAPHIC] [TIFF OMITTED] T0502.026

[GRAPHIC] [TIFF OMITTED] T0502.027

[GRAPHIC] [TIFF OMITTED] T0502.028

[GRAPHIC] [TIFF OMITTED] T0502.029

[GRAPHIC] [TIFF OMITTED] T0502.030

[GRAPHIC] [TIFF OMITTED] T0502.031

[GRAPHIC] [TIFF OMITTED] T0502.032

[GRAPHIC] [TIFF OMITTED] T0502.033

[GRAPHIC] [TIFF OMITTED] T0502.034

[GRAPHIC] [TIFF OMITTED] T0502.035

[GRAPHIC] [TIFF OMITTED] T0502.036

[GRAPHIC] [TIFF OMITTED] T0502.037

[GRAPHIC] [TIFF OMITTED] T0502.038

[GRAPHIC] [TIFF OMITTED] T0502.039

[GRAPHIC] [TIFF OMITTED] T0502.040

[GRAPHIC] [TIFF OMITTED] T0502.041

[GRAPHIC] [TIFF OMITTED] T0502.042

[GRAPHIC] [TIFF OMITTED] T0502.043

[GRAPHIC] [TIFF OMITTED] T0502.044

[GRAPHIC] [TIFF OMITTED] T0502.045

[GRAPHIC] [TIFF OMITTED] T0502.046

[GRAPHIC] [TIFF OMITTED] T0502.047

[GRAPHIC] [TIFF OMITTED] T0502.048

[GRAPHIC] [TIFF OMITTED] T0502.049

[GRAPHIC] [TIFF OMITTED] T0502.050

[GRAPHIC] [TIFF OMITTED] T0502.051

[GRAPHIC] [TIFF OMITTED] T0502.052

[GRAPHIC] [TIFF OMITTED] T0502.053

[GRAPHIC] [TIFF OMITTED] T0502.054

[GRAPHIC] [TIFF OMITTED] T0502.055

[GRAPHIC] [TIFF OMITTED] T0502.056

[GRAPHIC] [TIFF OMITTED] T0502.057

[GRAPHIC] [TIFF OMITTED] T0502.058

[GRAPHIC] [TIFF OMITTED] T0502.059

[GRAPHIC] [TIFF OMITTED] T0502.060

[GRAPHIC] [TIFF OMITTED] T0502.061

[GRAPHIC] [TIFF OMITTED] T0502.062

[GRAPHIC] [TIFF OMITTED] T0502.063

[GRAPHIC] [TIFF OMITTED] T0502.064

[GRAPHIC] [TIFF OMITTED] T0502.065

[GRAPHIC] [TIFF OMITTED] T0502.066

[GRAPHIC] [TIFF OMITTED] T0502.067

[GRAPHIC] [TIFF OMITTED] T0502.068

[GRAPHIC] [TIFF OMITTED] T0502.069

[GRAPHIC] [TIFF OMITTED] T0502.070

[GRAPHIC] [TIFF OMITTED] T0502.071

[GRAPHIC] [TIFF OMITTED] T0502.072

[GRAPHIC] [TIFF OMITTED] T0502.073

[GRAPHIC] [TIFF OMITTED] T0502.074

[GRAPHIC] [TIFF OMITTED] T0502.075

[GRAPHIC] [TIFF OMITTED] T0502.076

[GRAPHIC] [TIFF OMITTED] T0502.077

[GRAPHIC] [TIFF OMITTED] T0502.078

[GRAPHIC] [TIFF OMITTED] T0502.079

[GRAPHIC] [TIFF OMITTED] T0502.080

[GRAPHIC] [TIFF OMITTED] T0502.081

[GRAPHIC] [TIFF OMITTED] T0502.082

[GRAPHIC] [TIFF OMITTED] T0502.083

[GRAPHIC] [TIFF OMITTED] T0502.084

[GRAPHIC] [TIFF OMITTED] T0502.085

[GRAPHIC] [TIFF OMITTED] T0502.086

[GRAPHIC] [TIFF OMITTED] T0502.087

[GRAPHIC] [TIFF OMITTED] T0502.088

[GRAPHIC] [TIFF OMITTED] T0502.089

[GRAPHIC] [TIFF OMITTED] T0502.090

[GRAPHIC] [TIFF OMITTED] T0502.091

[GRAPHIC] [TIFF OMITTED] T0502.092

[GRAPHIC] [TIFF OMITTED] T0502.093

[GRAPHIC] [TIFF OMITTED] T0502.094

[GRAPHIC] [TIFF OMITTED] T0502.095

[GRAPHIC] [TIFF OMITTED] T0502.096

[GRAPHIC] [TIFF OMITTED] T0502.097

[GRAPHIC] [TIFF OMITTED] T0502.098

[GRAPHIC] [TIFF OMITTED] T0502.099

[GRAPHIC] [TIFF OMITTED] T0502.100

[GRAPHIC] [TIFF OMITTED] T0502.101

[GRAPHIC] [TIFF OMITTED] T0502.102

[GRAPHIC] [TIFF OMITTED] T0502.103

[GRAPHIC] [TIFF OMITTED] T0502.104

[GRAPHIC] [TIFF OMITTED] T0502.105

[GRAPHIC] [TIFF OMITTED] T0502.106

[GRAPHIC] [TIFF OMITTED] T0502.107

[GRAPHIC] [TIFF OMITTED] T0502.108

[GRAPHIC] [TIFF OMITTED] T0502.109

[GRAPHIC] [TIFF OMITTED] T0502.110

[GRAPHIC] [TIFF OMITTED] T0502.111

[GRAPHIC] [TIFF OMITTED] T0502.112

[GRAPHIC] [TIFF OMITTED] T0502.113

[GRAPHIC] [TIFF OMITTED] T0502.114

[GRAPHIC] [TIFF OMITTED] T0502.115

[GRAPHIC] [TIFF OMITTED] T0502.116

[GRAPHIC] [TIFF OMITTED] T0502.117

[GRAPHIC] [TIFF OMITTED] T0502.118

[GRAPHIC] [TIFF OMITTED] T0502.119

                                 <all>

</pre></body></html>
